<html>
<title> - MILITARY VOTING AND THE FEDERAL VOTING ASSISTANCE PROGRAM</title>
<body><pre>[Senate Hearing 109-883]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-883
 
       MILITARY VOTING AND THE FEDERAL VOTING ASSISTANCE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2006

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
35-169 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

       Military Voting and the Federal Voting Assistance Program

                             march 8, 2006

                                                                   Page

Chu, Dr. David S.C., Under Secretary of Defense for Personnel and 
  Readiness, Department of Defense...............................     5
Markowitz, Deborah L., President, National Association of 
  Secretaries of State, Vermont..................................    20
DeGregorio, Paul, Chairman, United States Election Assistance 
  Commission, Washington, DC.....................................    36
Stewart, Derek B., Director, Military and Department of Defense 
  Civilian Personnel Issues, Government Accountability Office....    43

                                 (iii)


       MILITARY VOTING AND THE FEDERAL VOTING ASSISTANCE PROGRAM

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:41 a.m. in room 
SR-228, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Talent, Thune, 
and Dayton.
    Other Senator present: Senator Burns.
    Majority staff member present: Richard F. Walsh, counsel.
    Minority staff members present: Jonathan D. Clark, minority 
counsel; and Gerald J. Leeling, minority counsel.
    Staff assistants present: David G. Collins, Jessica L. 
Kingston, and Jill L. Simodejka.
    Committee members' assistants present: Jeremy Shull, 
assistant to Senator Inhofe; Stuart C. Mallory, assistant to 
Senator Thune; William K. Sutey, assistant to Senator Bill 
Nelson; and Luke Ballman, assistant to Senator Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. My apologies for tardiness. This is my 
28th year to serve my Commonwealth of Virginia and be a 
Senator. I've come to observe one thing. Often we try to do 
everything at the same time, and this is one of those days. 
Presumably the Senators want to recess, so there are an awful 
lot of things going on at this time.
    Senator Burns, won't you join me?
    Senator Burns. Where do you want me?
    Chairman Warner. Sit right here.
    Senator Burns. What if Senator McCain shows up?
    Chairman Warner. I'll handle that.
    Senator Burns. He was a ranking officer, I was just 
enlisted.
    Chairman Warner. I understand that. But I welcome you. 
That's the first line I have in this opening statement.
    I visited the Malmstrom Air Force Base last month and had 
the pleasure of spending some time in that part of the country. 
Montana is a State that has embraced technological advances and 
sought to put the internet and e-mail to work to make it easier 
for absentee voters and military personnel, in particular, to 
vote in State and Federal elections.
    Senator Burns, thank you for attending today. We assured 
you that our committee wanted to receive the benefit of your 
views on this situation, and to bring forth from the Department 
of Defense (DOD) the witnesses that are most appropriately able 
to address it.
    I welcome our four witnesses this morning. First, Dr. Chu, 
the Under Secretary of Defense for Personnel and Readiness. Dr. 
Chu has responsibility for the Federal Voting Assistance 
Program (FVAP) in the Office of the Secretary of Defense. We 
look forward to your testimony about the Department's efforts 
to assist military overseas voters. After all, a vote is that 
support that keeps our Republic and freedom where it is today, 
and hopefully for generations to come. We want to afford our 
men and women in the Armed Forces every opportunity to exercise 
freely their desire to vote, no matter where they are in the 
world. No matter what they are doing. They--if they so desire--
should be given that opportunity, and we should do everything 
we can to facilitate it.
    Paul DeGregorio is the Chairman of the Election Assistance 
Commission, which was established by the Help America Vote Act 
in 2002. The Commission serves as a national clearinghouse and 
resource for information and review of procedures with respect 
to the administration of Federal elections. He is an expert on 
election administration, democracy building, and international 
elections. We thank you for joining us today.
    Deborah Markowitz is serving as the 37th Secretary of State 
of Vermont, and is the officer chiefly responsible for 
Vermont's elections. As the President of the National 
Association of Secretaries of State (NASS), she helps to ensure 
the exchange of information among the various Secretaries of 
State regarding their administration and voting.
    Derek Stewart is the Director of Military and DOD Civilian 
Personnel Issues within the Government Accountability Office 
(GAO). The GAO has performed several studies on military 
voting, and we look forward to your testimony about their 
findings and recommendations.
    The FVAP affects the Department's commitment to ensure that 
military personnel and their families--particularly those who 
are deployed and stationed overseas--are provided with the 
information and assistance they need to participate in State 
and Federal elections. The Secretary of Defense is responsible 
for administrating the Uniformed and Overseas Citizens Absentee 
Voting Act, and an important part of that responsibility is 
ensuring that U.S. civilians living and working overseas are 
also, I repeat also, given the tools needed to ensure they can 
submit absentee ballots on time and in conformance with all 
requirements of the 55 jurisdictions they call home.
    I will put the balance of my statement in the record, I 
must inform the witnesses that I'm managing the Detainee Bill 
on the floor and we resume that bill--we went into the night 
last night until 10 o'clock--I'll ask you to chair this 
hearing, but we first call on our distinguished acting ranking 
member, Mr. Dayton, Senator from Minnesota. I hope to rejoin 
you at some point in this hearing. I thank you, Senator.
    Senator Burns. I have another hearing and I have a meeting.
    Chairman Warner. All right, we'll have somebody by that 
time. Can you spend 15 minutes?
    Senator Burns. You bet. You got it.
    Chairman Warner. Thank you very much. Please, Mr. Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Not in my wildest dreams did I imagine I'd even get to be 
acting ranking member for a day before I depart in 3 months, 
but it's a great honor to sit next to you, sir. I'd be the 
first to say, I'm no Senator Levin, who is also on the floor. 
Before you leave, Mr. Chairman, I just want to say that, as I 
said last night, you and Senator Levin are two of the finest 
men I've ever met anywhere and had the privilege to serve with, 
so I want the public record to show that.
    I join with the chairman today in welcoming our witnesses. 
Military absentee voting is especially important in today's 
war-time environment. Thanks to the chairman's leadership and 
that of our ranking member, Senator Levin, this is not the 
first time this committee has examined this issue. It continues 
to be a work in progress.
    Voting is one of the most essential rights we have as 
American citizens. As we have asked our servicemembers to 
heroically shoulder so much of the burden and sacrifice in 
defending this Nation's values, it is critically important that 
we ensure their continued ability to vote.
    Secretary Chu, Ms. Markowitz, Mr. DeGregorio, and Mr. 
Stewart, welcome. We look forward to hearing from you to better 
understand the progress which has been made, and the problems 
which still remain to ensure all servicemembers and their 
dependents are able to exercise their right, and have their 
opportunities, to vote.
    Several times since the 2000 election, the GAO and the DOD 
have highlighted the challenges that remain in ensuring every 
servicemember and dependent's ability to vote. While Congress 
does have some authority pertaining to Federal elections, most 
voting activities fall under State regulations and laws. 
Traditionally, voting by servicemembers is properly a personal 
choice, not a military order. That makes measuring the DOD's 
success an inexact science.
    Moreover, voting difficulties increase for our troops who 
are deployed away from their home stations. Similarly, the 
military postal system faces additional challenges in war 
zones.
    Nevertheless we can, and we must, try to do better. We must 
make every possible effort to ensure that every servicemember 
and dependent is provided the opportunity to vote, unburdened 
by unnecessary administrative barriers, and in a timely manner 
so that their votes will be counted and will count.
    We must continue to make progress in using technology to 
simplify and expedite the voting process for them. Again, Mr. 
Chairman, I look forward to hearing from our witnesses today, 
their thoughts on where this process stands, the improvements 
that have been made, and how we can still make it better.
    I welcome our witnesses and I look forward to your 
testimony. Thank you, Mr. Chairman.
    Senator Burns [presiding]. Thank you. I don't see how he 
can say that, I'm not even a member of the committee, and here 
they put me in as chairman of this hearing. That's sort of 
funny, but thank you, Senator Dayton. I certainly appreciate 
that very much.
    Senator Dayton. You certainly progressed up the ladder 
faster than I.
    Senator Burns. I know. It makes me feel kind of funny. It 
would seem to me that what we're going to be talking about 
today is that we can get bills owed by our military personnel 
to them, but we can't get a ballot to them. Now something is 
wrong, and our priorities are in the wrong place. I'd like to 
thank Chairman Warner and all the members of this committee for 
recognizing the importance of this issue, military 
disenfranchisement, and holding this hearing today. I'd like to 
thank the witnesses and the National Defense Committee and Bob 
Carey for his testimony, which I understand will be submitted.
    I also want to extend a special thanks to members of the 
Business Transformation Agency who are in attendance today. 
They did a marvelous job in executing the Interim Voting 
Assistance System (IVAS) electronic ballot system in about 2 
weeks. Those folks will be available to demonstrate their 
program after this hearing if anybody is interested.
    I could go on about the details of the problems facing our 
men and women in the armed services who are disenfranchised by 
the inefficiency of a bureaucracy that is still operating the 
same way that it operated during the Korean War. About $25 
million spent on the aborted 2004 Secure Electronic 
Registration and Voting Experiment (SERVE) program and on, and 
on, and on it goes.
    Everyone that follows this issue, and certainly anyone who 
has served this country, already knows that. Instead I'd like 
for you to hear the words of Brenda Olmith. She lives in 
Billings, Montana, where I live, and she is a mother of a 
Marine corporal who is serving in Iraq. Brenda called my office 
yesterday because she was so frustrated. She said, ``My son is 
serving his country, and he can't vote. His ballot came too 
late for him to vote in the primary and now his ballot has 
arrived at my home and a local official will not take my word 
that his address is overseas.''
    Now nobody could say it better than she did. She said he 
deserves, and everybody deserves, a right to vote no matter 
where you are. I would say right now I am doubtful that there 
will be enough time to get this young corporal his ballot 
because he is deployed in Iraq.
    I have often said I felt sorry for people who never served 
in the military, because they somehow feel disenfranchised from 
this country because they don't think they own a part of it. 
This is practically true when you're not allowed to vote. You 
move further out into that abyss.
    In 2000, I remember seeing military ballots that were 
disqualified in Florida. I can remember it. There were sacks of 
them. I spoke with servicemembers who have been disenfranchised 
and they either received their ballots too late or they did not 
return them on time or they never received them at all.
    Now this corporal, this Marine corporal, is not an 
absentee. He and all others of the military are not on 
vacation. They are serving their country and they have been 
deployed overseas. It's not that they won't be home in 
November. They can't be home in November. They have orders to 
serve. We owe them their right to vote and making sure that 
they can vote. $3 trillion are transmitted every day on the 
internet, but time and time again the bureaucrats of DOD 
Personnel and Readiness have told us that getting a blank 
ballot to our troops electronically is just too difficult. Give 
me a break. I don't believe that, they are wrong. We have 
proven them wrong. The technology does exist to deliver ballots 
to our soldiers electronically without the risk of identity 
theft or tampering for both the soldier and the local election 
official (LEO). It only requires a Web browser and about as 
much effort as ordering a book on Amazon.com.
    Despite naysayers and the bureaucrats, and thanks to a 
concerted bipartisan effort, this IVAS technology is up and 
operational today. It was authorized by the fiscal year 2007 
Supplemental Appropriations Act and by this committee and has 
been funded. It was contracted and executed in less than a 
month as a commercial off-the-shelf solution by the Business 
Transformation Agency and a company called PostX, who developed 
it at risk. Unfortunately, that's not the end of the story. 
It's not the end of the story, because the bureaucrats have yet 
to listen.
    It was not enough when I and a bipartisan group of 16 other 
Senators asked the DOD to execute this program. It was not 
enough when Congress passed the law and funded the program, and 
it was not enough when the committee added specific authorizing 
language that directed the DOD to execute this program.
    I've had enough, and I think some of our folks that serve 
in the military Services have had enough. I believe this 
committee has had enough. This bureaucracy will change and we 
will do the right thing by our soldiers. If it does not change 
then we will change the bureaucrats.
    Some people have said to me this is just a small issue. It 
is not a small issue. It is the basis of our society. Ensuring 
our troops are not denied the vote just because they are 
deployed and making sure they get to cast their vote is no 
trivial matter. However this issue does have a simple solution, 
it's laying in front of us, but we're going to have to fight 
for it and we're going to have to hold some peoples' feet to 
the fire to make sure that they get it done or they get it. 
Maybe they have to get it first.
    I want to thank Chairman Warner for this hearing. I look 
forward to the testimony and the answers. I have some questions 
and I'm sorry, I have to leave. I chair the Aviation 
Subcommittee on Commerce and we're talking about Federal 
Aviation Administration and reauthorization of that Department. 
It's a very important hearing and I won't get to stay for all 
of this, but I look forward to your testimony.
    Secretary Chu.

STATEMENT OF DR. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE FOR 
         PERSONNEL AND READINESS, DEPARTMENT OF DEFENSE

    Dr. Chu. Thank you Senator Burns, Senator Dayton, it's a 
privilege to appear before this committee again. I do have a 
statement which I'd like to submit for the record, if I may.
    As I think members of this committee and this audience 
certainly know, DOD is responsible under President Reagan's 
Executive Order for carrying out the provisions, as far as the 
Federal Government is concerned, of the Uniformed and Overseas 
Citizens Absentee Voting Act (UOCAVA) as it is sometimes 
pronounced.
    As Senator Burns story of his constituent illustrates, 
voting in the United States is ultimately a local 
responsibility. Usually at the county level and sometimes at 
the township level--they set the rules. Of course it's the 
voter's privilege to exercise that franchise. We work with the 
55 jurisdictions, 50 States, and 5 additional jurisdictions, at 
that level as well as the more than 7,000 LEO elements across 
the United States.
    As that broad responsibility implies, one of our most 
important tasks is education. Education beginning with the 
training of our voting assistance officers. Every major unit, 
every major installation, has an officer who is responsible for 
ensuring that franchise on the part military voters can be 
successfully exercised and dealing with, as your comments 
indicated, Senator Burns, the myriad rules that pertain at the 
local level, that govern how people may request and get an 
absentee ballot, and what is necessary to convince the LEO that 
the servicemember's address is now in Iraq, and not Missoula.
    We also take responsibility for educating our military 
personnel themselves on the opportunity to vote. In the Labor 
Day week, we emphasized the importance of registering, as well 
as the importance of requesting a ballot so it can arrive in a 
timely manner. In the Columbus Day week, we emphasized the 
importance of sending back the ballot to ensure that it does 
get counted, and we have used an e-mail blast to all our 
military servicemembers on active duty to ensure they 
understand the opportunity in front of them.
    Likewise, it's our privilege to work with State and local 
officials like Ms. Markowitz on this panel as we deal in 
partnership with them with the complexities of American voting 
practices. Of course as part of our educational effort we 
maintain the Web site, FVAP.gov, in which you can find the 
rules governing all 55 of the major jurisdictions as far as 
voting is concerned in the United States.
    At this season of the year, as Senator Burns' story 
indicates, the emphasis is on ballot transmission and the Post 
Office remains a key partner of DOD. The bulk of ballots still 
move by mail. The Post Office, beginning in the 2004 election 
cycle, committed to using Express Mail in the weeks and days 
leading up to the election. I am pleased to say that beginning 
18 September, all ballot materials from LEOs are supposed to 
move from those offices to APO and FPO--that's the Army Post 
Office and Fleet Post Office addresses--by Express Mail, and 
beginning 1 October, the Post Office will likewise use 
expedited procedures to bring the mail back to the United 
States.
    We have, as the act requires, deployed postmarking 
materials to all our major units to ensure that ballots are 
marked so that the question of whether they can be counted is 
not subject to debate. We have--for the last 16 years--
emphasized as a ballot transmission option use of electronic 
means. This began with the use of fax as a an option in the 
Operations Desert Shield/Desert Storm period in 1990. I am 
pleased to say a majority of these 55 jurisdictions now permit 
fax receipt. That's important for a reason I'll come to in just 
a minute. I'm also pleased that on the order of, anywhere from 
6 to 12 jurisdictions, depending on which element of the 
process is involved, accept e-mail as a means of transmission 
and 18 jurisdictions have responded to our plea that they 
establish ballot registration status sites where the voter, the 
overseas voter, the military voter, can check on the status of 
his or her request.
    One of the reasons fax is important is that military 
members generally do have access to e-mail and we have--through 
our electronic transmission service--made it possible to take 
an e-mail message, and convert it to fax, so it is acceptable 
to a majority of States that accept fax transmissions.
    Finally, as Senator Burns has emphasized, we have deployed 
for this 2006 election cycle, two tools that use the internet, 
two different protocols that allow you to request and download 
a ballot. The ballot still typically has to be sent back by 
other means. We used a tool like this in the 2004 election 
cycle. We persuaded 108 counties in that election cycle to 
employ that tool. I'm pleased to report that in this cycle up 
to the present day, up to the last count 2 days ago, we had 
500. Over 500 counties have agreed to use one or other of these 
tools. They do still require an e-mail address on the part of 
the voter.
    Ultimately in this business it's results that count. I've 
made it a practice, starting in the 2004 election cycle, to 
begin meeting monthly as we lead up to the election with the 
senior voting representative of each military Service to check 
on what they are doing and to ensure that we confront properly 
any issues or problems that arise. This is a matter that has 
the Secretary of Defense's personal interest and, as he's noted 
to me, he is now met in each visit he makes to bases by the 
senior voting assistance officer to make sure that he or she 
can give a full report on what the base is doing or the unit is 
doing.
    We can look at the results from our survey, post-election 
survey of voters, both military and civilian in 2004. In 2004, 
73 percent of the military community indicated they had voted 
successfully. That was up 16 percentage points from the results 
in the 2000 election, so we have dealt with some of the issues 
that Senator Burns has addressed, although challenges still 
remain.
    Equally important, the proportion of respondents that 
indicated they attempted to vote and failed to vote was cut in 
half, from 12 percent in 2000 to 6 percent in 2004. There were 
similar improvements in Federal civilians overseas and in non-
Federal Americans overseas who are also part of our 
responsibility. Just as a point of reference, the Election 
Assistance Commission estimates that 60 percent of the national 
population voted in that last 2004 election.
    To produce these results, of course, takes a concerted 
effort, a team effort, it starts with our commanders and the 
emphasis that they put on the importance of voting and the 
opportunity that citizens have to elect their representatives. 
It does involve a significant partnership with the United 
States Postal Service, and I want to take this occasion 
publicly to thank the Postal Service for what they did in 2004 
and what they're doing in 2006 and, of course, the concomitant 
collaboration of the Military Postal Service Agency. It does 
sometimes involve the Department of Justice (DOJ) to ensure 
that jurisdictions send ballots out in a timely manner. I know 
there are local disagreements over primary results. I respect 
that fact, but we do set a standard, a standard we have 
advocated with the Governors that you ought to allow 45 days 
for the transmission of ballots. Ballots should move 45 days 
before the election to the overseas or military voters, so 
there is time both to receive the ballot, to think about one's 
choices, and to send that ballot back. DOJ has been very 
helpful in specific instances where we need to take legal 
action. It equally involves a partnership with Department of 
State, and, of course, we are very grateful for the support of 
Congress for these various efforts.
    The issue, of course, in 2006 will be, can we replicate the 
significant improvement that was achieved in 2004? That is our 
intent. We also hope to use the experience of 2006 to prepare 
the Department for 2008, to give added emphasis to 
registration, and to participation in primaries in that 
election cycle. The planning for that has already begun and 
that effort will start in earnest on the morning of November 8. 
Thank you, sir.
    [The prepared statement of Dr. Chu follows:]

                Prepared Statement by Dr. David S.C. Chu

    Mr. Chairman and members of the committee, thank you for this 
opportunity to testify on the Federal Voting Assistance Program in the 
Department of Defense.
    In 1988, President Reagan issued Executive Order 12642 designating 
the Secretary of Defense as his agent to implement the provisions of 
the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA) and to 
discharge the Federal functions required by the act. As Under Secretary 
for Personnel and Readiness, I am responsible for administering the 
Federal Voting Assistance Program for the Secretary.

                               BACKGROUND

    The UOCAVA safeguards the right to vote for Federal offices by 
absent uniformed servicemembers and their families, and overseas U.S. 
citizens. As mandated by the act, the Federal Voting Assistance Program 
prescribes uniform absentee forms such as the Federal Postcard 
Application for registration and ballot request to facilitate these 
citizens' Constitutional right to vote. In 2005, the Federal Voting 
Assistance Program revised this form, as well as the Federal Write-In 
Absentee Ballot form, used by voters as an emergency ballot in cases 
where the State ballot does not arrive promptly. The changes make the 
forms easier to use by making them more understandable to the citizen 
while providing more needed information to election officials, such as 
the citizen's e-mail address and his or her alternate mailing address. 
In its administration of this law, the Federal Voting Assistance 
Program works cooperatively with State and local election officials to 
carry out its provisions.
    The absentee voting process for UOCAVA citizens requires the 
successful completion of several steps. The citizen registers to vote 
and requests an absentee ballot from his or her local election official 
using the Federal Postcard Application. Upon receipt of the completed 
Federal Postcard Application, the local election official determines 
the citizen's legal voting residence based on the information provided. 
Approximately 45 to 30 days prior to the election, the local election 
official provides a State absentee ballot to the citizen. The citizen 
then votes the ballot and returns it to his or her local election 
official. These steps traditionally are accomplished by using the 
United States Postal Service, Military Postal Service Agency, and 
foreign postal systems.

                       RECENT STATUTORY DIRECTION

    Title VII of the Help America Vote Act of 2002 required the 
Secretary of Defense to prescribe regulations and procedures so that 
Voting Assistance Officers are provided time and resources necessary to 
perform their duties; implement measures to ensure a postmark or other 
official proof of mailing is placed on ballots collected by DOD 
overseas or vessels at sea; and develop a standard oath for UOCAVA 
voting materials. All of these provisions required by the title have 
been successfully implemented.
    The Act required States to designate a single office responsible 
for UOCAVA citizen procedures; report to the Election Assistance 
Commission on the number of UOCAVA absentee ballots sent, received and 
cast; extend the effective period of the Federal Postcard Application 
through the next two regularly scheduled general elections; inform 
UOCAVA voters if their registration or ballot applications were refused 
and the reason for the refusal; and accept a Federal Postcard 
Application submitted early in the calendar year. The Federal Voting 
Assistance Program issued a Help America Vote Act interpretative 
memorandum dealing with UOCAVA related issues and sent the memorandum 
to State and local election officials in August 2003. These changes to 
the law have led to improvements in the absentee voting process by 
removing unnecessary obstacles faced by UOCAVA voters.
    Title V, Subtitle I of the Defense Authorization Act for Fiscal 
Year 2005 expanded the use of the Federal Write-In Absentee Ballot to 
allow for its use by uniformed servicemembers and their eligible family 
members within the United States; allowed all UOCAVA voters to submit 
their ballot request for use of the Federal Write-In Absentee Ballot 
either 30 days before the general election or the State deadline for 
registration and ballot request, whichever is later; and delayed the 
electronic voting demonstration project until electronic absentee 
voting guidelines and standards have been established by the Election 
Assistance Commission.

               PROGRESS IN WORKING WITH STATE GOVERNMENTS

    State legislatures are also moving forward to facilitate absentee 
voting. For many years, the Federal Voting Assistance Program has 
proposed legislative initiatives to State officials that would 
facilitate absentee voting for UOCAVA citizens. The current top 
legislative priorities are for States and Territories to:

        <bullet> Provide at least 45 days between the ballot mailing 
        date and the date ballots are due.
        <bullet> Give State Chief Election Officials the emergency 
        authority to alter election procedures in certain circumstances 
        (e.g., to extend the ballot return deadline, or to allow 
        electronic transmission of blank or voted ballots)
        <bullet> Allow election officials to provide a State write-in 
        absentee ballot, to be sent out 90-180 days before all 
        elections. This State write-in ballot would allow the voter to 
        cast votes for Federal and State offices.
        <bullet> Further expand the use of electronic transmission of 
        voting materials.

    Currently, 42 States and Territories provide at least 45 days 
between the ballot mailing date and the date ballots are due; 16 States 
and Territories give State Chief Election Officials the emergency 
authority to alter election procedures in certain circumstances; 27 
States and Territories allow election officials to provide a State 
write-in absentee ballot; and 50 States and Territories provide for the 
electronic transmission of voting materials. Additionally, 18 States 
and Territories allow for the late counting of absentee ballots sent 
prior to the close of polls.

                               EDUCATING

    The Department devotes considerable resources to ensure that UOCAVA 
citizens are properly informed and educated about the process of 
absentee voting. Education includes formal training of Voting 
Assistance Officers, providing information to State and local election 
officials, and ensuring that UOCAVA citizens have adequate and proper 
access to the necessary materials and the means to request and submit 
their absentee ballots.
    Federal Voting Assistance Program staff members conduct voting 
assistance workshops to prepare for upcoming elections. These workshops 
give Voting Assistance Officers the hands-on training they need to 
understand their mission and to perform their duties. Since October 
2005, Federal Voting Assistance Program staff members have conducted a 
total of 110 workshops worldwide to prepare for the 2006 mid-term 
elections. These workshops included:

        <bullet> 8 workshops open to all Voting Assistance Officers 
        conducted at the Federal Voting Assistance Program headquarters 
        in Rosslyn, Virginia.
        <bullet> 64 workshops conducted onsite at military 
        installations around the world for Voting Assistance Officers.
        <bullet> 38 workshops conducted at Department of State 
        installations for State Department Voting Assistance Officers 
        and for civilians of overseas citizen organizations who assist 
        other overseas citizens with completing the absentee voting 
        process.

    For Voting Assistance Officers who are unable to attend an in-
person workshop, two E-learning options are available to receive 
certified training. Voting Assistance Officers may request a CD-ROM 
containing the Federal Voting Assistance Program training from the 
Federal Voting Assistance Program or may complete an on-line E-learning 
session produced by the Federal Voting Assistance Program and hosted on 
the Navy E-learning Web site. A slide presentation for use by Voting 
Assistance Officers in their outreach is available online.
    In addition to the in-person and online training opportunities, the 
Federal Voting Assistance Program Web site provides Voting Assistance 
Officers with a wealth of information regarding their responsibilities. 
On the Web site there are separate sections for Voting Assistance 
Officer training and Voting Assistance Officer information. 
Additionally, another section provides specific information for local 
election officials.
    Since the State and local election officials are the individuals 
who administer elections, they are our allies in facilitating absentee 
voting. It is important that they be kept abreast of the latest issues 
with UOCAVA voting. The Federal Voting Assistance Program regularly 
sends memoranda and letters to local election officials providing 
education and clarification of UOCAVA issues. In addition, during the 
past year Federal Voting Assistance Program staff has addressed 
officials at conferences of the National election official 
organizations:

        <bullet> National Association of Secretaries of State
        <bullet> National Association of State Election Directors
        <bullet> International Association of Clerks, Recorders, 
        Election Officials, and Treasurers
        <bullet> National Association of Election Officials (Election 
        Center) Joint Election Official Liaison Committee

    Federal Voting Assistance Program staff also traveled to address 
several State conferences of local election officials. This year, the 
Federal Voting Assistance Program attended and addressed local election 
officials at conferences in:

        <bullet> Georgia
        <bullet> Idaho
        <bullet> Iowa
        <bullet> New Mexico
        <bullet> North Dakota
        <bullet> Oregon
        <bullet> West Virginia

    When addressing these State and local election officials, the 
Federal Voting Assistance Program recommends practices and procedures 
to ensure maximum compliance with UOCAVA. These recommendations 
include:

        <bullet> Differentiating between UOCAVA and other State 
        absentee voters in State and local literature, in State laws 
        and administrative codes, and on State and local election Web 
        sites.
        <bullet> Ensuring all employees in local election offices 
        throughout the State are trained on the provisions of UOCAVA.
        <bullet> Providing a Web site dedicated to UOCAVA citizens and 
        elections in which UOCAVA citizens can participate.
        <bullet> Preparing a State UOCAVA Voter Guide for publication 
        on Web site and in hard copy.
        <bullet> Providing sufficient ballot transit time.
        <bullet> Providing simple ballot marking and return 
        instructions with absentee ballots, including instructions to 
        return the voted ballot by fax or e-mail where authorized.

                        INFORMING AND EQUIPPING

    The Department works hard to ensure that uniformed service voters 
are informed about upcoming elections and the procedures for 
registering and requesting an absentee ballot. Department communication 
efforts seek to gain maximum exposure for the voting program in a 
variety of communications media. Department and Federal Voting 
Assistance Program staff publicize absentee voting through commercial 
print and broadcast media outlets. Stories on absentee voting are run 
on the Pentagon Channel, Armed Forces Radio and Television, through the 
Armed Forces Information Service, as well as in print publications such 
as Stars and Stripes. Reminders about voting were printed on the leave 
and earnings statements of all servicemembers and overseas DOD 
personnel. E-mail blasts about voting have been sent to 1.2 million 
servicemembers.
    Communicating is undertaken through extensive command support. 
Particular emphasis is placed on voting awareness to reach individual 
members of the unit. Messages regarding absentee voting are included on 
Service Web sites, in the Plans of the Day, and at Commander's Call 
briefings. Billboards are posted on installations informing members of 
their right to vote. Installations support Armed Forces Voters Week 
(September 3-9, 2006). Efforts extend to family members through 
displays, voter registration drives, and information at Morale, 
Welfare, and Recreation Facilities, Family Service Centers, medical 
facilities, commissaries and exchanges, and DOD Dependent Schools.
    The Federal Voting Assistance Program Web site (www.fvap.gov) is an 
asset to uniformed servicemembers, voting age family members, and 
overseas citizens providing remote access to voting information 
directly on their computer. The site received 1,540,810 hits between 
January 1, 2006 and September 7, 2006. During that time period, the 
online version of the Federal Postcard Application was downloaded 
42,689 times. The online version of the Federal Write-in Absentee 
Ballot was downloaded 5,504 times. The site is updated frequently with 
information pertinent to absentee voters.
    The Federal Voting Assistance Program provides up-to-date 
information to Voting Assistance Officers. The Federal Voting 
Assistance Program publishes its Voting Information News newsletter 
monthly. The Federal Voting Assistance Program issues News Releases 
routinely to announce time sensitive information (e.g., changes in 
absentee procedures or the holding of special Federal elections). Both 
the newsletter and the News Releases are distributed electronically via 
e-mail, and posted on the Federal Voting Assistance Program Web site. 
The newsletter is also made available in a hardcopy format.
    The Department provides voters and Voting Assistance Officers the 
tools, materials, and information necessary to facilitate registration, 
ballot request, and ballot transmission. The Services distribute Voting 
Assistance Guides, Federal Postcard Applications and Federal Write-in 
Absentee Ballots to their Voting Assistance Officers and individual 
voters. From October 1, 2005-September 7, 2006, Federal Voting 
Assistance Program distributed 227,000 hard copies of the Federal 
Postcard Application and 91,000 hard copies of the Federal Write-In 
Absentee Ballot, and the Services distributed additional copies of the 
forms through their normal supply chains. Both forms, of course, are 
also available through the Federal Voting Assistance Program Web site.

                    FACILITATING BALLOT TRANSMISSION

    The Department takes extraordinary steps to ensure that members of 
the uniformed services, their family members, and overseas citizens 
have an opportunity to vote. Expediting ballots, particularly via mail, 
is a very important aspect of the absentee process.
    The Department's effort to expedite delivery of ballots starts well 
before the election year. The Federal Voting Assistance Program, in 
conjunction with the U.S. Postal Service, redesigned the absentee 
ballot transmittal and return envelopes in 2005 to minimize the amount 
of processing time for absentee ballots moving through modern mail-
handling equipment.
    The Military Postal Service Agency ensures that its outlets have 
the capabilities to handle absentee ballots. All major military units 
in forward deployed roles have postmarking capabilities to ensure that 
ballots are postmarked. Weekly messages are sent to military post 
offices reminding local workers of the proper procedures in handling 
ballots. Surveys of all military post offices are conducted biweekly in 
July and August, and weekly from September through November to ensure 
no ballots are delayed. Military Postal Service Agency publishes 
recommended mailing dates, based on location, to help ensure ballot 
receipt by State deadlines and that servicemembers understand when 
their absentee ballots need to be returned to their local election 
officials.
    In 2004 the U.S. Postal Service began handling ballots using 
Express Mail procedures while those ballots are within its system. I 
want to thank the U.S. Postal Service, particularly Mr. Paul Vogel, 
Senior Vice President of Global Business, for the outstanding support 
provided in expediting balloting materials so that our service men and 
women could exercise their franchise. The Military Postal Service also 
used special handling and expediting procedures while transporting 
ballots outside the U.S. to Army Post Office and Fleet Post Office 
addresses. The Federal Voting Assistance Program, in conjunction with 
the U.S. Postal Service, is again ensuring that military absentee 
ballots are expedited. Beginning September 18, absentee ballots from 
local election officials are handled as Express Mail to Army Post 
Office and Fleet Post Office mailing addresses to ensure that absentee 
ballots arrive promptly. Beginning October 1, the U.S. Postal Service 
will ensure that absentee ballots from Army Post Office and Fleet Post 
Office facilities are expedited back to the local election official. 
This expedited delivery includes special marking and handling of 
absentee ballots and, in the days leading up to the election, the use 
of Express Mail for inbound voted absentee ballots.
    For those citizens who may not be able to vote because of their 
mobility or because of sporadic mail delivery to remote locations, the 
use of technology can provide alternative means for voters and local 
election officials to send and receive voting materials. In 1990, the 
Federal Voting Assistance Program initiated, with the cooperation of 
the States and Territories, emergency use of electronic transmission 
(facsimile technology) and established the Electronic Transmission 
Service so that uniformed servicemembers deployed during Operation 
Desert Shield were not disenfranchised. The Electronic Transmission 
Service allowed these voters deployed in the Persian Gulf to fax their 
registration request application and the local election official to fax 
the blank ballot to the voter. Now, faxing is widely accepted.
    The Department aggressively promotes the continually expanding use 
of technology through electronic transmission alternatives. Fax and e-
mail options for registering to vote, requesting an absentee ballot, 
receiving the absentee ballot, and returning the voted absentee ballot 
greatly reduce the amount of time needed to complete the absentee 
voting process, and give UOCAVA voters additional alternatives when 
regular mail is slow or unreliable.
    Currently, the Electronic Transmission Service exists as a toll-
free option for voters to send their applications, receive their blank 
ballots and return voted ballots to local election officials. Voters 
have the capability of sending and receiving their absentee balloting 
materials through toll-free fax numbers in 51 countries. Uniformed 
servicemembers and dependents also have access to a toll-free number 
through the Defense Switch Network. Currently:

        <bullet> 32 States and Territories allow UOCAVA voters to 
        submit a Federal Postcard Application for registration by fax.
        <bullet> 50 States and Territories allow UOCAVA voters to 
        submit a Federal Postcard Application for absentee ballot 
        request via fax.
        <bullet> 35 States and Territories allow UOCAVA voters to 
        receive the blank ballot via fax.
        <bullet> 26 States and Territories allow UOCAVA voters to 
        return the voted ballot via fax.

    Many States and Territories have expanded their electronic 
transmission alternative capabilities to include e-mail. The Federal 
Voting Assistance Program is aggressively urging States to consider 
using e-mail as an integral part of the electronic alternatives made 
available to their citizens. Since many forward deployed soldiers have 
e-mail capabilities but do not have access to fax capabilities, the 
institution of processes that allow for e-mail ballot request, ballot 
delivery, and ballot return can be crucial. Currently:

        <bullet> 12 States and Territories allow UOCAVA voters to 
        submit a Federal Postcard Application for absentee ballot 
        request via e-mail.

                <bullet> Alaska
                <bullet> Illinois
                <bullet> Iowa (2006 Election)
                <bullet> Montana
                <bullet> Minnesota (Restricted)
                <bullet> Mississippi (for Active-Duty overseas)
                <bullet> North Dakota
                <bullet> Oregon
                <bullet> Puerto Rico
                <bullet> South Dakota
                <bullet> Washington
                <bullet> Wisconsin

        <bullet> 6 States and Territories allow UOCAVA voters to submit 
        a Federal Postcard Application for registration via e-mail.

                <bullet> Alaska
                <bullet> Oregon
                <bullet> Montana
                <bullet> Mississippi (for Active-Duty overseas)
                <bullet> South Dakota
                <bullet> Washington

        <bullet> 12 States allow UOCAVA voters to receive the blank 
        ballot via e-mail.

                <bullet> Alaska
                <bullet> Florida
                <bullet> Illinois
                <bullet> Iowa (2006 election)
                <bullet> Montana
                <bullet> Mississippi (for Active-Duty overseas)
                <bullet> North Dakota
                <bullet> Oregon
                <bullet> South Carolina
                <bullet> Virginia
                <bullet> Washington
                <bullet> Wisconsin

        <bullet> 8 States allow UOCAVA voters to return the voted 
        ballot via e-mail.

                <bullet> Alaska
                <bullet> Iowa (2006 election)
                <bullet> Mississippi (for Active-Duty overseas)
                <bullet> Missouri (2006 election)
                <bullet> Montana
                <bullet> North Dakota
                <bullet> South Carolina
                <bullet> Washington

    The Department also encourages States and Territories to make 
available to citizens online tools that allow voters to check their 
registration status. Since 2005, the Federal Voting Assistance Program 
has encouraged States and Territories to launch these sites and 
promoted the use of such sites to allow voters the opportunity to 
promptly know if their absentee ballot has been dispatched and provide 
them with the opportunity to take corrective measures if necessary. To 
date, ballot registration status sites have been launched in 18 States 
and Territories:

        <bullet> Delaware, pollingplace.delaware.gov/
        <bullet> District of Columbia, www.dcboee.org/voterreg/vic--
        step1.asp
        <bullet> Georgia, www.sos.state.ga.us/cgi-bin/Locator.asp
        <bullet> Indiana,www.indianavoters.com/PublicSite/Public/
        PublicVoter Registration.aspx?AspxAutoDetectCookieSupport=1
        <bullet> Kansas, https://myvoteinfo.voteks.org/
        <bullet> Kentucky, cdc.ky.gov/VICWeb/index.jsp
        <bullet> Louisiana, sos.louisiana.gov/polllocator/
        <bullet> Maryland. mdelections.umbc.edu
        <bullet> Michigan, michigan.gov/sos/0,1607,7-127-1633-49313--
        ,00.html
        <bullet> Nebraska, https://www.votercheck.necvr.ne.gov/
        <bullet> North Carolina, www.sboe.state.nc.us/
        <bullet> Ohio, www.sos.state.oh.us/sosapps/elections/
        voterquery.aspx
        <bullet> Puerto Rico. www.ceeput.org/serviciosLineas/
        estatusEelectoral/index.htm
        <bullet> South Carolina, https://webprod.cio.sc.gov/
        SCSECVoterWeb/voterInformationSearch.do
        <bullet> Utah, gva1.utah.gov/elections/polling.aspx
        <bullet> Virginia, www.sbe.state.va.us/VotReg/VR--Confirmation/
        Default.html
        <bullet> Washington, www.secstate.wa.gov/elections/lookup.aspx/
        <bullet> West Virginia, www.wvvotes.com/voters/am-i-
        registered.php

    In 2004, the Department administered the Interim Voting Assistance 
System (IVAS). IVAS was a voluntary project implemented in September 
2004 to allow eligible absentee voters (Active-Duty military, activated 
Guard and Reserve personnel, their dependents, DOD overseas Federal 
agency personnel in Central Command and DOD contactors overseas) to 
request their absentee ballots via the internet. In order to take 
advantage of IVAS, voters must have already been in the Defense 
Enrollment Eligibility Reporting System, be a UOCAVA voter, and must 
have been from a State and county that had volunteered to participate.
    Using IVAS, the voter could request a ballot over the internet. 
After the local election official approved the request, IVAS notified 
the voter via e-mail that the ballot was available to download. The 
voter then could download and print the ballot, mark it by hand, and 
return it by mail to the local election official.
    One hundred eight counties in nine States agreed to participate in 
IVAS 2004. At the end of the election, 28 of those counties had 
actually received and processed ballot requests, and uploaded ballots 
for UOCAVA voters to pick up. Voters downloaded 17 ballots.
    The Department, as mandated by Congress in Public Law 109-234, 
section 1212, is continuing the IVAS effort from 2004. For 2006, IVAS 
was renamed and launched as the Integrated Voting Alternative Site, 
which provides a feature on the Federal Voting Assistance Program Web 
site consolidating information from the 55 States and Territories on 
electronic ballot request and delivery alternatives with the goal of 
communicating these alternatives to UOCAVA voters.
    Additional features of IVAS 2006 are online ballot request and 
delivery tools being offered for use by States and Territories through 
the Department. The Federal Voting Assistance Program has communicated 
with all States and Territories regarding the options that are 
available to them regarding this project. States may choose the tool 
best suited to the needs of their UOCAVA voters and their State laws 
and administrative procedures. The tools are available for use by 
uniformed servicemembers, family members, and overseas employees and 
contractors.
    Tool #1 is an online ballot request system developed by the Defense 
Manpower Data Center which allows registered voters to submit a Federal 
Postcard Application ballot request to their local election official 
via e-mail. That option is being utilized by seven States and 
Territories:

        <bullet> Arkansas
        <bullet> Illinois
        <bullet> North Carolina
        <bullet> Puerto Rico
        <bullet> Vermont
        <bullet> Virgin Islands
        <bullet> Washington

    Tool #2 is an online ballot request and delivery system, developed 
through the Department's Business Transformation Agency and contractor 
Post-X which allows registered voters to submit a Federal Postcard 
Application ballot request to their local election official and receive 
the blank ballot via a secure server. Indiana, Kentucky, and Montana 
have agreed to utilize this option.

                                RESULTS

    After each presidential election, the Federal Voting Assistance 
Program conducts a statistically-based, random sample survey of UOCAVA 
citizens to gather information about their participation in the 
absentee voting process. For the 2004 general election, among uniformed 
servicemembers (stateside and overseas) 73 percent voted, and an 
additional 6 percent attempted to vote (as compared to 57 percent and 
12 percent, respectively in 2000). Among Federal civilian employees 
overseas, 77 percent voted and an additional 3 percent attempted to 
vote (versus 55 percent and 10 percent, respectively in 2000). Among 
non-Federal civilians overseas, 53 percent voted and an additional 5 
percent attempted to vote (compared to 22 percent and 15 percent, 
respectively in 2000).
    In contrast, the Election Assistance Commission reports that 60.4 
percent of the general public voted in 2004 (51 percent voted in 2000 
according to the Federal Election Commission).
    The participation results for uniformed servicemembers and U.S. 
civilians overseas reflect the concerted efforts to improve the 
absentee voting process. Particularly noteworthy in 2004 we reduced by 
one half to two-thirds the fraction that unsuccessfully attempted to 
vote in each community (uniformed personnel, Federal civilians, and 
overseas citizens).

                            LOOKING FORWARD

    Over the last 2 years, the Department has continued to build on the 
successes of the 2004 presidential election. While mid-term election 
voting participation rates for uniformed servicemembers and overseas 
voters are lower than in presidential election years, as with the 
participation rates for the general voting age population, efforts of 
the Department, the U.S. Postal Service, the Department of Justice, the 
Department of State, other Federal agencies, and State and local 
governments are giving more voters a greater opportunity to participate 
in this 2006 election. Through our collective efforts to promote and 
implement expanded electronic transmission alternatives, voters will 
continue to reap the benefits of these expanded options in this and 
future elections.
    The Department appreciates the support of Congress for its 
initiatives. These initiatives brought focus to the 2004 election 
cycle, with significant improvement in military voting participation. 
We aim for similar improvement in this year's cycle--taking into 
account the realities of mid-term elections. The procedures we try this 
year provide a firm foundation for 2008--perhaps even opening the door 
on the next challenges; facilitating registration and strengthening 
participation in primary elections.

    Senator Burns. Secretary Chu, thank you very much. I am 
going to ask a couple questions here if that is okay. You put 
your statements in, and he'll hear your statements, but I'm 
really pushing the envelope now on the other side of the 
building here.
    I'm going to ask Ms. Markowitz, when you convened your 
Secretary of States in July, and DOD met with you at that time, 
with those officials, it was almost 1 month after Congress had 
directed the DOD to execute the IVAS program. After that DOD 
presentation, did you feel that your members had the 
information they needed to decide whether or not to adopt the 
IVAS program for your States?
    Ms. Markowitz. I think our members had a----
    Senator Burns. Pull that microphone a little closer to you, 
would you? You have such a kind, soft voice here.
    Ms. Markowitz. Thank you. It was a good introductory 
presentation, but I have to tell you in our experience it took 
a phone call from a couple of folks who work for the FVAP to 
our office. I actually spoke directly with two of the staff 
members with my elections director so that we could think about 
how we in Vermont could participate, how we could make this 
work given our own local laws. We were able to. I have to say 
that that was instrumental, the fact that there was follow-up. 
So the meeting alone, I think, wasn't enough. That shouldn't be 
the sole method of communicating with the folks who are running 
the elections. It requires a follow-up and there are only 55 if 
you are thinking about what the scope of the project is. So I 
guess I would give, by way of feed-back, that it's those 
follow-up calls that really do seal the deal and allow the 
election officials to have a real conversation about what the 
goal of the project is and how we could make it work in our 
States.
    Dr. Chu. If I may add, Senator Burns, we did call every one 
of the 55 jurisdictions. We also wrote every 1 of the 55, and 
in every case where we had any intimation that the jurisdiction 
was interested, if we hadn't heard back, we called again.
    Senator Burns. We hear that you, Secretary Chu, are 
concerned about identity theft and security any time you 
transfer or use electronic transfer of information--and we know 
that there is a lack of regard, I think, in some cases with the 
DOD with regard to these kind of programs. I'm concerned that 
you have endorsed a system that has security problems.
    The IVAS program does not have security problems and can be 
put in place very easily. I don't like any possibility of 
identity theft because over in the Commerce Committee we talk 
about that every day. So, the continued e-mail approach after 
the DOD evaluation of your program showed that vulnerability. 
Why do we want to push the same program? Does that make sense?
    Dr. Chu. We pay attention, Senator, to security in every 
one of our programs. There are different levels of security 
obtainable depending on which approach you use. As I think the 
security experts will lecture us, there is no perfect security 
system. We believe e-mail is reasonably secure for these 
purposes. A significant number of States have accepted e-mail. 
Even more States have accepted fax.
    I do think in this whole enterprise there is, as Ms. 
Markowitz's comments indicated, a process in which we all have 
to be comfortable with the particular solution adopted. Each 
State, each local election office must be comfortable with that 
process and that's our intent here, to deploy a variety of 
tools so that each State or other jurisdiction, each local 
election office, if it comes to that, can be comfortable with 
the choice it has made. As I said, I am pleased that between 
the 2 tools we've deployed this year, thus far already, over 
500 counties, out of what I believe are close to 7,000 counties 
and States, have agreed to participate.
    Senator Burns. I have a couple other questions, and I'm 
really up against it, I have to go, but--and I'm going to turn 
this over to Senator Dayton to round this out, but I'm still 
concerned whether this program should be put in place, the IVAS 
program, and you named a program over the IVAS.
    Dr. Chu. We put the tool I think you're most interested in, 
in place, Senator, and a number of counties are going to use 
it. I am delighted by that. We'll gain further experience with 
it. We have experience in 2004. We have experience now in 2006, 
and we can use that experience in planning for 2008.
    Senator Burns. We'll be watching very closely, but I am 
really concerned. It is this business of just getting bogged 
down in a bureaucracy that gives us a little bit of pause to be 
nervous up here. Especially when we want something done--and 
especially if we put it into law--we would like to see it done.
    Dr. Chu. We are doing it. We obey the law.
    Senator Burns. Thank you very much, and thank you, Mark.
    Senator Dayton [presiding]. Thank you, Mr. Chairman and I--
--
    Senator Burns. Oh, I would ask unanimous consent that Mr. 
Carey's statement be made part of the record, Mr. Chairman.
    [The prepared statement of Mr. Carey follows:]

                    Prepared Statement by Bob Carey

    The National Defense Committee wishes to specifically thank Senator 
Burns as well for requesting these hearings and for his tireless 
efforts on behalf of military voters. Just yesterday, the National 
Defense Committee was able to assist a young Marine Lance Corporal from 
Yellowstone County in Senator Burns' State of Montana, who had received 
his absentee primary ballot after the primary and was afraid of being 
disenfranchised again in the general election due to his imminent 
overseas deployment. The National Defense Committee was able to alert 
him to the availability of the Federal Write-in Absentee Ballot (FWAB). 
Although the FWAB is a poor substitute for a full absentee ballot, 
since this young Marine will still be blocked from voting for State and 
municipal candidates, it does give him the opportunity to vote for 
Senator Burns, if he so desires.
    I also wish to thank Senator McCain for his steadfast support of 
the committee's efforts, including those regarding military voter 
disenfranchisement. As someone who was disenfranchised for almost a 
decade due to enemy action, his passion for protecting the voting 
rights of all military servicemembers is evident to the National 
Defense Committee every day.
    Every week, without fail, the National Defense Committee receives 
yet more desperate pleas from disenfranchised military personnel 
begging us for assistance in getting ballots, navigating the 
unnecessarily complex absentee ballot application system, or finding 
out if their vote was, in fact counted. This after Congress has been 
unequivocal in its directives to the Department of Defense (DOD) to 
institute programs to adequately protect those voting rights. In my 
estimation, the DOD has failed miserably.
    Nowhere is this failure more acutely demonstrated than with the 
Federal Voting Assistance Program (FVAP). Despite having a workable, 
secure electronic absentee ballot request and transmission system (the 
Interim Voting Assistance Solution (IVAS) up and running in 2004, the 
FVAP abandoned it. FVAP then tried to foist off on military voters a 
significantly less secure, and less capable system, confusingly given 
the same IVAS acronym, but which was evaluated by DOD as having little, 
if any, capacity for protecting voter identification or against voter 
fraud. If I did not know better, I would think that FVAP intended to 
fail in this program.
    Mr. Chairman, you think I'd have gotten used to this. Voter 
disenfranchisement has been a persistent and common occurrence, rather 
than the exception, for as long as military personnel were given the 
right to vote during World War II. A substantial minority, and in some 
cases a majority, of these brave military personnel have regularly 
suffered disenfranchisement through no fault of their own.
    It's not like this is something we just recently discovered. As 
early as 1952, the House Administration Subcommittee on Elections 
concluded many of the servicemembers fighting the Korean War were 
likely to be disenfranchised in that year's Presidential election. The 
Honorable C.G. Hall, then Secretary of State of Arkansas and President 
of the National Association of Secretaries of State, testified that 
because of late primaries, ballot access lawsuits, and other problems, 
election officials did not have ballots printed and ready to mail until 
a few days before the election.\1\
---------------------------------------------------------------------------
    \1\ The committee report's complete text is available on the 
National Defense Committee (NDC) Web site, 
www.nationaldefensecommittee.org.
---------------------------------------------------------------------------
    Fifty four years later, what's changed? Not much. We could take 
those exact same words and apply them equally today. From the point of 
view of the soldiers, sailors, airmen, marines, and coast guardsmen out 
on patrol, standing watch, and engaging the enemy, it doesn't look like 
anyone in the DOD cares.
    For the vast majority of your and your fellow Senators' 
constituents, military voters are subjected to anachronistic State 
requirements to conduct absentee voting the old-fashioned way, by 
shipping pieces of paper around the world through the United States 
Postal Service and its Defense Department equivalent. Despite the 
strong mandates and recommendations of the Help America Vote Act and 
Uniformed and Overseas Citizen Absent Voters Act (UOCAVA), little has 
been done to take advantage of the promise the internet holds to 
provide our deployed servicemembers the same voting rights their fellow 
citizens back home enjoy.
    The result? Like that Lance Corporal from Yellowstone County, 
military personnel don't get their ballots in time for elections, they 
can't send them back in time to meet ballot deadlines, and as a result, 
they are unable to participate in the electoral process. In March 2005, 
the National Defense Committee surveyed over 7,800 local election 
officials regarding their overseas and military absentee voting rates 
for the 2004 general election. NDC found at least a 24 percent 
disenfranchisement rate for military absentee voters. In fact, that is 
probably an underestimation of the problem as it relied upon the 
voluntary reporting of local election officials, and at least 10 States 
worth of those officials did not participate, in addition to scores of 
local election offices. A copy of that study is attached to this 
testimony, and Mr. Chairman, I respectfully request it be entered in 
the record of this hearing along with my testimony.
    Even more disturbing is when we look at what is supposed to be the 
emergency back-up system for military voters, the FWAB. When a 
servicemember is reduced to having to use this emergency ballot, we've 
already accepted substantial disenfranchisement because it does not 
provide them the opportunity to vote in any State or municipal 
election. But beyond that, our analysis in 2005 indicated that most of 
these ballots were not counted. For example:

        <bullet> California, 278 FWABs received, only 124 counted, a 
        56-percent disenfranchisement rate.
        <bullet> Florida, 481 FWABs received, only 284 counted, a 49-
        percent disenfranchisement rate.
        <bullet> Illinois, 1,165 FWABs received, only 820 counted, a 
        30-percent disenfranchisement rate.
        <bullet> Maryland, 1,829 FWABs received, only 1,118 counted, a 
        39-percent disenfranchisement rate.
        <bullet> Missouri, 260 FWABs received, only 169 counted, a 35-
        percent disenfranchisement rate.
        <bullet> North Carolina, 285 FWABs received, only 57 counted, 
        an 80-percent disenfranchisement rate.
        <bullet> New York, 678 FWABs received, only 319 counted, a 53-
        percent disenfranchisement rate.
        <bullet> Ohio, 750 FWABs received, only 329 counted, a 56-
        percent disenfranchisement rate.
        <bullet> Texas, 2,934 FWABs received, only 727 counted, a 75-
        percent disenfranchisement rate.
        <bullet> Tennessee, 161 FWABs received, only 53 counted, a 67-
        percent disenfranchisement rate.
        <bullet> Virginia, 207 FWABs received, only 93 counted, a 66-
        percent disenfranchisement rate.

    When a system so complex is forced on our military men and women 
that any where from 30 percent to 80 percent of their votes are 
rejected, we are failing them. We are failing to protect their right to 
vote just like poll taxes, literacy tests, onerous identification 
requirements, and other methods of intentional disenfranchisement led 
to the passage of the Voting Rights Act.
    Our results were echoed in the March 2006 Elections Assistance 
Commission report on voting disenfranchisement in the 2004 general 
election after the passage of the UOCAVA, which found almost 20 percent 
of all military and overseas voter absentee ballots were not counted in 
the 2004 general election. This represents 200,000 military and 
overseas voters who wanted to vote, but whose vote was not counted. 
Specific results were even more harrowing, with disenfranchisement 
rates breaking 50 percent in Arkansas (50.7 percent), and exceeded 
28,000 individual voters in Florida.
    While the military nears completion on the universal transition to 
PKI certificates and digital signatures for all military information 
technology networks, providing near absolute irrefutability of 
individual Internet and information technology acts and keystrokes, 
local election officials continue to mandate paper ballots and manual 
signatures.
    For reasons beyond my comprehension, but as you already know, there 
are three timeconsuming steps required in absentee voting. First, the 
absentee ballot request must travel from the voter to the election 
official. Second, the unmarked ballot must travel from the election 
official to the voter. Finally, the marked ballot must travel from the 
voter back to the election official in the voter's hometown. Each of 
these steps can take weeks if the mail must be used, but only seconds 
if secure electronic means were authorized.
    For the military voter, especially, the most difficult and 
problematic step is the second step, the transmission of the unmarked 
ballot from the election official to the voter, for two reasons. First, 
the election official cannot print, much less mail, absentee ballots 
until all uncertainties about who and what go on the ballot have been 
resolved. For example, in 2004, in Arkansas, a dispute about whether 
Ralph Nader had qualified for the ballot was not resolved until several 
days into October. In the meantime, the Arkansas Supreme Court enjoined 
local election officials from mailing out ballots, until the State's 
high court could hear and decide the matter.
    The other problem is that the military voter is a moving target. 
Let me take one example--myself. I received military mobilization 
orders on October 22, 2004. I reported to my Reserve center on Long 
Island on that date, and then reported to a military processing site in 
Washington, DC, a week later. I was scheduled to depart for the Middle 
East on November 1, but because of a service requirement, was 
fortunately able to stay in the United States and go to New York on 
Election Day to vote.
    If not for that, I would not have been able to vote. I would have 
submitted my absentee ballot application on October 22, but where would 
the ballot have gone? All I had was an ultimate duty station address in 
Bahrain, to where I was not scheduled to report until after the 
election. New York law requires the ballot to be postmarked by midnight 
the day before the election. Because I answered my Nation's call to 
service, I would not have been able to vote if not for a quirk in my 
mobilization processing.
    The same thing happened upon my return. New York City was having 
its Mayoral election in November 2005. I departed Bahrain on November 
4, 2005, reported to my outprocessing site on November 6. The election 
was November 8. The New York ballots were not available until 32 days 
before the election.
    Mail regularly took 2 weeks to get to Bahrain and 2 weeks to get 
back. Please remember that there is a bifurcated system for delivering 
mail to servicemembers and others. The United States Postal Service 
(USPS) delivers mail to all addresses within the United States, 
including military installations and hospitals. The Military Postal 
Service Agency (MPSA), which is part of DOD, is responsible for 
delivering mail to Army Post Office (APO) and Fleet Post Office (FPO) 
addresses outside the United States. So, even if the ballot was mailed 
exactly 32 days prior to the election, it likely wouldn't arrive in 
Bahrain until October 23. A delay in receiving his mail of even 10 
days, and I would have missed my ballot. So, assuming everything goes 
perfectly, I had to mail the ballot by November 1. That gave me only a 
week to analyze my votes for all the city candidates in a city of 8.1 
million people. Frankly, this is ludicrous. Why do we continue to 
accept it?
    Every day, billions of dollars are transmitted by secure, but 
unclassified electronic means over the Internet. The military routinely 
transmit classified information electronically, by means of the 
military's Secure Intranet Protocol Routing Network (SIPRNET). 
Additionally, all unclassified military IT communications are being 
stamped with digital signatures and PKI certificates tied to the 
member's military identification card, providing a much higher degree 
of user identification than is used at any polling place.
    In the interim, we also have the reconstituted original IVAS system 
directed by Congress through this summers' supplemental appropriations. 
Up and running in only a few weeks, this system is unfortunately only 
available to military voters in two Montana counties, in large part 
because of the failure of FVAP and the DOD to publicize it. It was also 
delayed because it required the concerted efforts of this committee and 
Senator Burns to force the DOD to implement this system, even after 
directed and funded by Congress. Why, Mr. Chairman? Why is FVAP so 
doggedly opposing proven methods of providing our servicemembers 
secure, and far easier, means to vote?
    I'd also like to lay out a preemptive argument. The National 
Defense Committee does not buy the argument that providing such 
electronic voting assistance to military personnel would unduly grant 
them unequal ballot access. Remember that for most absentee voters, 
absentee voting is essentially a voluntary act. Most requirements to be 
away from a voter's community on Election Day are actually not 
requirements, but conveniences. Business trips and vacations, although 
important, are not required of the individual voter requesting an 
absentee ballot. The military servicemember does not have that 
prerogative. The military servicemember is ordered by Federal action to 
leave their locality on Election Day and cannot tell the military they 
will not obey because they want to vote. They are required to obey, and 
do so in the defense of our country. In my opinion, that fully 
justifies specific relief for this special class of individuals.
    The 1952 congressional hearing report I discussed before includes a 
letter to Congress from President Harry S. Truman. I invite your 
attention particularly to the most eloquent opening paragraph of 
President Truman's letter:

          About 2,500,000 men and women in the Armed Forces are of 
        voting age at the present time. Many of those in uniform are 
        serving overseas, or in parts of the country distant from their 
        homes. They are unable to return to their States either to 
        register or to vote. Yet these men and women, who are serving 
        their country and in many cases risking their lives, deserve 
        above all others to exercise the right to vote in this election 
        year. At a time when these young people are defending our 
        country and its free institutions, the least we at home can do 
        is to make sure that they are able to enjoy the rights they are 
        being asked to fight to preserve.

    What President Truman wrote of those fighting the Korean War in 
1952 is equally true of their grandsons and granddaughters, and great-
grandsons and great-granddaughters, fighting the global war on 
terrorism today. To summarize:

        <bullet> We know what the problem is, and have known for 54 
        years.
        <bullet> State and municipal election officials have either 
        failed or refuse to solve this problem.
        <bullet> Our military personnel are disenfranchised at 
        unacceptable rates because of that failure.
        <bullet> Because they are Federal military personnel, taken 
        away from their communities by Federal orders, and because the 
        States and municipalities have failed to resolve this, Federal 
        legislative intervention is necessary and appropriate to 
        preserve the voting rights of military personnel.

    Mr. Chairman, I implore you: take action as soon as this Congress 
reconvenes after the election. Pass a bill out of this committee that 
guarantees easy, secure, internet-based voting for all levels of 
elections for every member of the military. We owe them no less.

    Senator Dayton. Thank you, Mr. Chairman. I consulted with 
the committee staff, and it's my understanding that the 
committee rules do permit the hearing to continue without a 
member of the majority so I will ask for a unanimous consent 
that I may be permitted to hear the rest of the witnesses. I 
will then confine myself to my own questions unless other 
members arrive.
    Hearing no objection, Ms. Markowitz would you proceed and 
provide other comments you care to make for the record as part 
of your formal statement?

    STATEMENT OF DEBORAH L. MARKOWITZ, PRESIDENT, NATIONAL 
          ASSOCIATION OF SECRETARIES OF STATE, VERMONT

    Ms. Markowitz. Yes, thank you very much, Mr. Chairman, and 
I want to thank the committee for giving me the opportunity to 
speak on behalf of the Nation's chief elections officials. I'm 
Deborah Markowitz, and I'm the Vermont Secretary of State. I'm 
currently the President of the National Association of 
Secretaries of State (NASS). It's an honor to appear before you 
to talk about this important issue.
    As you can imagine, my fellow secretaries around the 
country believe that the most precious right of a democracy is 
the right to vote and that members of our military are making 
extraordinary personal sacrifices for their country and deserve 
all of our efforts to make sure that they can exercise this 
right.
    As an organization, NASS is committed to improving the 
voting process and to finding ways to make it easier for those 
in the country--and outside of the country--to exercise the 
franchise. Unfortunately, State laws sometimes cause barriers. 
Some States have postmark requirements. Others, like Vermont, 
have late primary dates. There's absentee ballot request 
deadlines, voter registration procedures. Vermont actually has 
a challenging voter registration procedure in that you have to 
take a sworn oath in order to vote. That oath needs to be 
notarized, which we make easy because any commissioned officer 
can provide the notary, but it's an additional step. It means 
somebody can't register to vote online, but note, that's in our 
constitution. It's in our State's constitution, so it's not 
that easy to change. It's an example of the variety of 
challenges that States face in our efforts to make it easy for 
people who are overseas, our military in particular, to 
register and to vote.
    Secretaries of State have been working on this issue. I was 
first elected in 1998, so I have been here now for 8 years as 
part of this association and, year after year, as we meet we 
look at ways that we might make changes to our State laws, make 
changes to the way we approach overseas voters and particularly 
the military. We have seen improvements. I would say that--I'd 
like to commend the FVAP for their partnership in that 
conversation. The fact is they do make sure they're at our 
meetings talking about this issue. They make sure that it 
percolates to the top of our list.
    With the Help America Vote Act, we've been extremely busy 
on elections. It wouldn't be surprising had this fallen by the 
wayside, but it didn't. This issue didn't fall by the wayside 
because of the persistence, particularly of Polli Brunelli, who 
I think is here today, and I want to personally thank for her 
efforts.
    NASS as an organization has also been active. In 2004 NASS 
passed a resolution urging the Federal Government to implement 
an air express ballot delivery plan that would expedite both 
the delivery and receipt of ballots for military and overseas 
voters. It was our belief, and it still is our belief, that 
such a plan would allow a military or overseas voter to deliver 
a completed ballot back to the Military Voting Assistance 
Officer (VAO) or to an appropriate U.S. embassy official by a 
deadline as close as practical to the election, and still have 
that ballot delivered in time for it to be counted on election 
day or according to the laws of the particular State.
    As an organization, we called on the Federal Government to 
implement this service because the internet voting project for 
military and overseas voters, the SERVE project, had just been 
cancelled. We felt this was a very important alternative.
    In July 2004, we also did a survey of our members. We asked 
our members to put information on their Web sites directed to 
military and overseas voters to give those voters an 
opportunity to go to one spot to find everything they need to 
know so that they could vote. That information was gathered and 
also put on the National Association of Secretaries of State 
Web site, so there's one portal. There's one place that 
somebody in the military or overseas can go to find out about 
what they need to do in their States. Actually you should know 
that this year we added an additional benefit on that Web site. 
We have a Web site called www.canIvote.org, which lets any 
voter in the United States or out, come to a central portal to 
find out if they're registered, and if they're registered, 
where and who they could contact, who their LEO is so they can 
contact them to ask for an absentee ballot to be sent. We think 
this is a proactive way to try to help our military and 
overseas voters be able to participate.
    In doing a survey we found that we got some pretty good 
information to help us let citizens know what's required of 
them in their particular State. It also allows us as 
Secretaries of State to see what others are doing because we 
learn from each other and when you go to meetings the best part 
of the meeting is you talk to peers and get some ideas on how 
you might be able to do it better. Incidentally, I've included 
with my remarks, my written remarks, copies of those surveys so 
that you also can have an idea of the variety of efforts that 
are being made across the country.
    Senator Dayton. Any supporting documents you wish to submit 
will be added to the record at the conclusion of your 
statement.
    Ms. Markowitz. Thank you, sir. Obviously Secretaries of 
State have been very eager to work with Federal agencies to 
assist military and overseas voters. Over the years we have 
worked very closely with the FVAP on various pilot programs, 
including the 2000 Internet Voting Project, the 2004 SERVE 
Project, the expedited postal programs, and now IVAS.
    We're also working to think about what other choices are 
available. We're working with FVAP to help see the variety of 
challenges in our localities so that they could possibly do 
their job better and reach the people they need to reach more 
effectively. I think it's been a tremendous asset to have them 
at the table at our meetings, as well. We're excited about the 
IVAS initiative. I personally think it's a great addition to 
the options. The challenge we all face, though, is timing. For 
any program to be successful, it has to be implemented early 
enough to be effective. The States need time to put the right 
procedures in place. We need time to be able to train our 
election officials and, I have to say, because of the Help 
America Vote Act, we're less of a hodge-podge across the 
country. The Help America Vote Act required the States to have 
uniformity within the counties or within the jurisdictions. For 
the first time, I, as the chief elections official, really can 
put more effort in rules that my localities have to follow. I 
think that's a real tool for Secretary Chu and his staff.
    That being said, in order to implement a new program, we 
need enough time to train those local workers. They need to 
know that they may be asked to e-mail out a ballot and that 
that's acceptable. We're a small enough State that we've been 
able to meet the challenge, but I do know for the larger States 
that's a significant hurdle. We have for the first time, 
because of the Help America Vote Act and the resources that the 
Help America Vote Act has provided us, we have money that is 
dedicated to poll worker training, to training those election 
officials. Early information would allow us to better 
incorporate these programs into that training. So, I would say 
looking towards 2008, an early partnership, early information, 
I think, would benefit everybody.
    In Vermont, just to speak a moment about my State that I'm 
very proud of, we have worked very hard to make it possible for 
our overseas and military voters to participate. We are one of 
the late primary States, which means that we are rarely able to 
get ballots sent out in the mail before 30 days before the 
election, any earlier than that. That's because with a second 
Tuesday in September primary, we need some time to print the 
ballots before we can actually send them out. That's a 
challenge, and you should know that we have gone to our 
legislature to ask for that date to be changed. Two years ago, 
actually about 18 months ago, when I was testifying before the 
legislature I brought in our National Guard because we have 
many National Guardsmen and women deployed, particularly in 
Iraq and Afghanistan, and we obviously share a concern they be 
able to vote.
    We had asked the National Guard to actually do some 
research to see what has happened to all of the ballots that 
were requested by Guard members in the previous election. They 
actually looked up every ballot that was requested. They called 
every single town and found that all but a few were returned 
and counted in time, and the ones that weren't returned and 
counted were not counted, and there's nothing anyone could have 
done about it. It's because the National Guard member was so 
far out in the field that they weren't getting communication, 
they weren't getting mail, they weren't by a telephone and 
nothing would have really solved that problem. It was 
frustrating for me personally, because I was arguing for moving 
this primary date--it was a bad surprise that they came out 
saying we're doing just fine the way we are.
    But, you should know that really has been Vermont's 
experience, that we have some data now to show that we have 
been fairly successful. That being said, I know that's not 
always going to be the case. We had some very committed service 
officers making sure everybody was getting what they needed. We 
do fax out ballots, and we did in that election fax out 
ballots. We're very happy that now we have the option to e-mail 
ballots as well.
    I believe that we do need to take an entrepreneurial 
approach to this issue and that technology will provide a 
solution. Maybe not internet voting. In Vermont, for example, 
we're using an innovative voting technology to permit our 
citizens who have disabilities, particularly those who are 
blind or visually impaired, to vote privately and 
independently, and that technology could be used also for our 
military and overseas voters. We're hoping to do that in the 
future. It's a telephone voting system. It's a secure system. A 
voter can call in, have PIN numbers, a special code to bring up 
the right ballot. They then can mark the ballot using the 
telephone key pad, and it prints out a paper ballot at the end 
which is scanned in, read back to the voter so the voter can 
say, ``Yes, I like this piece of paper, this ballot says what I 
want it to say,'' and then it's cast in our central election 
center.
    It's new technology, and we're using it for the first time 
in this general election. We used it in our primary with great 
success. Right now we only use it in our polling places. There 
are some, obviously, additional security complexities when you 
use it with military and overseas voters, but, this is an 
example of how we can be innovative and find additional 
solutions. I believe that they are there.
    I guess in sum, I'd like to encourage Secretary Chu to 
continue working with the States, continuing to look for 
innovative technology that might be able to be broadly deployed 
to solve what's a serious problem for some of our service men 
and women overseas and our overseas citizens. I'd like to thank 
you, Mr. Chairman, and the committee for the invitation to 
speak here and if I, or the National Association of Secretaries 
of State, can be of any assistance on any of the issues before 
you, please don't hesitate to call on us.
    [The prepared statement of Ms. Markowitz follows:]

            Prepared Statement by Hon. Deborah L. Markowitz

    Thank you, Mr. Chairman and members of the committee for giving me 
this opportunity to speak on behalf of the Nation's chief State 
election officials today. My name is Deborah Markowitz. I am the 
Vermont Secretary of State and the President of the National 
Association of Secretaries of State (NASS). It is an honor to appear 
before you to discuss the status of military voting programs and the 
Federal Voting Assistance Program (FVAP).
    The members of NASS believe that the most precious right of a 
democracy is the right to vote, and that the members of the U.S. 
military are making extraordinary personal sacrifices to promote and 
defend democracy. As an organization whose members include the Nation's 
chief State election officials, NASS is committed to improving the 
voting process and to making voting as simple as possible for those 
serving our country.
    Unfortunately, State laws regarding postmarks, late primary dates, 
absentee ballot deadlines and voter registration procedures often 
inadvertently make voting more complicated for our military voters and 
overseas citizens. For years, those States with late primaries--
including Vermont--have worked to convince our legislatures that our 
late primaries make it extremely difficult for us to use the U.S. mail 
to get election materials to military and overseas voters in time for 
them to vote.
    In February 2004, NASS passed a resolution urging the Federal 
Government to implement an air express ballot delivery plan that would 
expedite both the delivery and receipt of ballots for military and 
overseas voters. It is our belief that such a plan would allow a 
military or overseas voter to deliver a completed ballot to a military 
Voting Assistance Officer or an appropriate U.S. embassy official by a 
deadline as close as practical to the election, and still have the 
ballot delivered to his or her election official no later than noon on 
the Friday or Monday before Election Day. As an organization, we called 
on the Federal Government to implement this service because the 
Internet voting pilot project for military and overseas voters, SERVE, 
had just been cancelled.
    In July 2004, we called on the States to include voting information 
for military and overseas citizens on their State Web sites. NASS also 
included information on our Web site for military and overseas 
citizens--including our resolution language, links to all of the 
States' election Web sites and to voting information Web sites for each 
branch of the Armed Forces, as well as State-by-State surveys on issues 
relevant to military and overseas voters.
    While our surveys are not scientific, we do find that posting the 
results helps us to inform citizens about voting procedures in their 
State, while keeping the Secretaries abreast of what other States are 
doing. Our ``Single State Office and Method of Delivery for Materials'' 
survey summary included State-by-State contact information that both 
the Secretaries and the general public could use to get answers to 
their questions about the States' military and overseas voting 
practices. The survey summary also outlined the allowable methods for 
submitting absentee ballot requests and for returning voter 
registration applications, FPCAs, and completed ballots. In the spring 
of 2006, we updated the survey to include the question, ``What are the 
allowable methods for sending ballots to military and overseas 
voters?''
    A copy of the survey and copies of our resolutions have been 
included for your review.
    The Secretaries have worked in close cooperation with their 
legislatures to amend State laws to keep current with technological 
advances. The use of e-mail and faxing for much of the information 
exchanged between a voter and an election official is now allowed in 
most States. However, it is important to note that most States still 
require the actual voted ballot be returned by mail or express 
delivery.
    We are eager to work with the Federal agencies that have been 
established to assist military and overseas voters. Over the years, the 
States have worked closely with the Federal Voting Assistance Program 
(FVAP) on various pilot programs, including the 2000 Internet Voting 
project, 2004 SERVE project, Expedited Postal Programs and now IVAS. 
NASS is working with the FVAP to determine how best to improve 
communication between Federal, State, and local governments. NASS staff 
members provide regular updates to the Secretaries by sending out e-
mail notices and summaries about programs at the Federal level. Unlike 
Federal agencies, the association isn't constricted by Federal laws 
governing written communications, so NASS is able to give its members 
advance notice of deadlines and official communications that will be 
arriving via U.S. mail from Federal agencies like FVAP, the U.S. 
Election Assistance Commission (EAC) and U.S. Department of Health and 
Human Services (HHS). In addition to e-mail communications and updates, 
NASS also invites the Federal agencies to present their programs at our 
winter and summer conferences each year.
    We are very excited about the IVAS initiatives FVAP is implementing 
for the November 2006 elections. The challenge we all face is timing. 
In order for any program to be successful, it must be implemented 
effectively, but it must also be implemented early. The States need 
time to put the proper procedures (and in some cases new laws) in place 
and time to notify and train local election officials. Our local 
election officials will be responsible for ensuring that any new 
election practice is successfully implemented.
    We also share responsibility with the FVAP for making military and 
overseas voters aware of the new services available to them. The States 
and localities that are able to implement some or all of the 
initiatives this year will be a tremendous resource for those who will 
follow them. We all look forward to building on the success of the 
programs being utilized this year.
    In Vermont we have worked hard to make it possible for our overseas 
and military voters to participate. We have found ways to be flexible, 
within the context of our State laws, so that ballots can be faxed or 
e-mailed overseas so that there can be a great chance of them being 
voted and then returned to Vermont by Election Day so that they can be 
counted. We have a special page on our Web site for overseas and 
military voters so that they can have easy access to all the 
information they need to register and vote by mail, and we are very 
happy to be participating in the new IVAS project to accept automated 
FPCAs.
    Looking into the future we are hoping that technology will provide 
additional solutions to permit our service men and women, and our 
overseas citizens to vote easily and quickly. This year, in Vermont, we 
are using the IVS Vote-By-Phone system to permit voters with 
disabilities to vote privately and independently at our polling places. 
This system permits a voter to use the telephone keypad to mark a paper 
ballot which is printed out in our Elections Center, and which can then 
be counted with the rest of the ballots on Election Day. I believe that 
this technology holds great promise for use by our overseas and 
military voters. We have encouraged the FVAP to consider whether this 
innovative technology could be broadly deployed to solve what is a 
serious problem for our service men and women and for our overseas 
citizens.
    Mr. Chairman and members of the committee, I thank you again for 
the invitation to speak here today. If I or NASS can be of any 
assistance on the issues we've discussed, I hope you won't hesitate to 
call on us.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Dayton. Thank you, Madam Secretary of State. That 
was an excellent and impressive overview about what you're 
doing in Vermont. I will convey to the authors and champions of 
the Help America Vote Act, Senators McConnell, Dodd, and Bond, 
the fact that this has made a difference and I know they'll be 
very pleased to get that report. Thank you very much.
    Mr. DeGregorio, welcome to the committee.

STATEMENT OF PAUL DeGREGORIO, CHAIRMAN, UNITED STATES ELECTION 
             ASSISTANCE COMMISSION, WASHINGTON, DC

    Mr. DeGregorio. Good morning, Mr. Chairman. Thank you. I am 
pleased to be here this morning on behalf of the U.S. Election 
Assistance Commission, also known as the EAC, to discuss the 
responsibility our agency has in supporting the States and 
local governments in serving military and overseas voters.
    We are here today to discuss a very important segment of 
our electorate, military and overseas citizens. This group of 
voters, which is estimated to be over 3 million Americans, has 
very specific needs. At the EAC we are working to understand 
the needs of these voters and to help election officials 
develop practices and procedures that address those needs.
    In every election, military and other overseas voters are 
not able to cast timely ballots because of the excessive amount 
of time that it takes to complete the voting process. According 
to several studies, up to 25 percent of these voters are often 
disenfranchised. We find this level of disenfranchisement 
unacceptable. A significant portion of this percentage is 
composed of military voters who simply did not have enough time 
to vote, either because they never received their ballot, 
received it too late, or couldn't return their ballot by the 
required deadline.
    In 2004, the EAC conducted the first comprehensive survey 
of State practices involving military and overseas voting. The 
survey found that many jurisdictions are not tracking how many 
ballots are sent to, and received from, these voters as 
required by the Help America Vote Act of 2002. These challenges 
were highlighted just last week when the EAC conducted a public 
meeting in St. Louis, Missouri, focused on issues related to 
military and overseas voting. Mr. Chairman, I have a copy of 
the testimony we received last week and would like to submit 
that for the record.
    Senator Dayton. Without objection.
    Mr. DeGregorio. Thank you. Several salient points were 
gleaned from the presentations made at the meeting. First, the 
current voting process for these citizens is not working as 
well as it should. Second, members of the military and overseas 
citizens have very difficult and different issues, needs, and 
resources when it comes to voting. Finally, the current methods 
for reducing excessive delays in requesting, transmitting, and 
receiving ballots from these voters are merely temporary 
solutions to a much larger problem.
    While DOD has attempted several projects to increase the 
use of technology in voting, the receptiveness of the States to 
these projects has been limited. Also, often times the dates of 
the primary elections dictate the length of time that a 
military and overseas voter has to request, receive, and return 
a voted ballot. States that continue to hold late primary 
elections or finalize their ballots less than 45 days before 
the general election make it very difficult for these voters to 
receive a ballot, much less vote.
    The EAC is working to find solutions to these problems. In 
2004, our agency, in conjunction with the FVAP, released a 
report on best practices for facilitating voting by military 
and other overseas citizens. The EAC recognizes that ballots 
for overseas voters are sent and received by the 6,700 local 
election authorities and it is there where military and other 
overseas voters must ultimately be served. It is with this 
concept in mind that the EAC recommends the following best 
practices.
    First, local officials should mail absentee ballots to 
military and overseas voters at least 45 days prior to the 
deadline for receipt of voted absentee ballots.
    Second, the States should expand the use of fax and e-mail 
to distribute absentee ballots to overseas voters more quickly.
    Third, the States need to ensure that local jurisdictions 
are in compliance with State law for mailing absentee ballots 
to military and other overseas voters.
    Finally, LEOs need to create a specific point of contact 
for these voters in their offices so their needs can be better 
served.
    Challenges lay ahead for the future of military and 
overseas voters. The implementation of technology alone will 
not solve the problems that these voters face. This is a 
complex problem that requires rethinking the way that elected 
and election officials serve this important constituency. These 
challenges can be overcome. Every day financial institutions 
use secure technology to transmit billions of dollars. The U.S. 
military uses secure technology to send sensitive and 
classified information. We should utilize these resources with 
strategically located personnel to ensure that these voters 
have the ability to participate in U.S. elections.
    The EAC has contracted for a study of internet voting and 
the transmission and receipt of absentee ballots for military 
and other overseas voters. This study will include reviewing 
the practices of the States and local jurisdictions that use 
technology to transmit or accept ballots, which may allow over-
the-internet voting.
    In conclusion, over the past 4 years significant changes 
have been made to our election administration system. The Help 
America Vote Act contemplated the need to modernize election 
administration, and we have seen progress serving domestic 
voters, however we must turn that same level of attention to 
serving the voters who protect the democracy that we cherish by 
making sure that they can participate in our elections.
    Thank you, Mr. Chairman. Thank you for the opportunity to 
address the committee. I'd be happy to answer any questions.
    [The prepared statement of Mr. DeGregorio follows:]

               Prepared Statement by Hon. Paul DeGregorio

    Good morning Chairman Warner and members of the committee. I am 
pleased to be here this morning on behalf of the U.S. Election 
Assistance Commission (EAC) to discuss the responsibility EAC has in 
supporting the States and local governments in serving military and 
overseas voters.
    We are here today to discuss a very important segment of our 
electorate, military, and overseas citizens. This group of voters, 
which many estimate to be over 3 million Americans, has very specific 
and unique needs in comparison to voters who have the ability to vote 
in the precincts that are just blocks from their homes. Members of the 
armed services are often separated from their home polling places by 
time and great distances. Overseas citizens have left their home land 
to serve their country in various governmental capacities, or they are 
out of country for business, family, or other reasons. None of these 
Americans have left behind their right to vote and their ability to 
help make decisions about the government of their country of 
citizenship. Both of these groups are important to our democracy, their 
votes are important to our elections, and it is imperative that we take 
steps to assure that their votes are cast and counted. However, the 
distances that separate these voters from their election jurisdictions 
cannot easily be bridged by our current election processes and 
procedures. At EAC, we are working to understand the needs of military 
and overseas voters and to help election officials develop practices 
and procedures that address those needs.

               EAC'S ROLE IN MILITARY AND OVERSEAS VOTING

    EAC is a bipartisan commission consisting of four members: Paul 
DeGregorio, chairman; Donetta Davidson; and Gracia Hillman. There is 
currently one vacancy on the Commission. The EAC was established by the 
Help America Vote Act (HAVA). HAVA was a comprehensive piece of 
election reform legislation that charges election officials at the 
State and local level with implementing improvements to voting 
technology, provisional voting, voter registration management, voter 
identification, and information provided to voters. However, HAVA did 
more than prescribe these changes. Congress, through HAVA, has 
appropriated $3.1 billion for States to implement HAVA's election 
reforms. EAC was given the responsibility of distributing those funds 
to States and providing guidance to States in the implementation of 
these new election administration practices. In addition to 
responsibilities regarding HAVA's requirements, EAC was also charged 
with assuming the duties of administering the National Voter 
Registration Act (NVRA) and collecting information and conducting 
studies of election administration under the Uniformed and Overseas 
Citizens Absentee Voting Act (UOCAVA).
    In 2004, EAC began its work on military and overseas voting by 
working with the Federal Voting Assistance Program (FVAP) to produce a 
set of best practices. In addition, in 2004, EAC for the first time 
sought to collect information from all 50 States, the District of 
Columbia, and the 4 Territories on the number of ballots that were sent 
to and the number of ballots that were returned by military and 
overseas citizen voters. In 2005, EAC continued its work with election 
officials to implement the requirements of HAVA that will impact all 
voters, including members of the military and overseas citizens. This 
work included issuing guidance on the implementation of statewide voter 
registration databases and developing standards for voting systems. 
Since its inception, the EAC has also met on a continuing basis with 
various groups who represent the interests of military and overseas 
voters. Most recently, EAC conducted a public meeting in St. Louis, 
Missouri that focused on the needs of military and overseas citizen 
voters. In 2006 and 2007, EAC will continue its work to support States 
in administering elections involving military and overseas citizen 
voters by collecting information on the participation of members of the 
military and overseas citizens in the November 2006 election and by 
conducting a study of electronic means that can be used to facilitate a 
faster turn around time in sending out and returning ballots.

                THE MILITARY AND OVERSEAS VOTING SYSTEM

    Military and overseas citizen voting, just like domestic voting, is 
conducted through our distributed system of election administration. 
There are a handful of Federal laws that protect the rights of citizens 
in voting and that govern certain portions of the administration of 
Federal elections. These laws include the Voting Rights Act, the 
Accessibility to Elderly and Handicapped Act, the National Voter 
Registration Act, the Uniformed and Overseas Citizens Absentee Voting 
Act, and the Help America Vote Act. The gaps left by these laws are 
filled by State laws, procedures, and practices, including laws that 
set the time for printing absentee ballots, the means by which absentee 
voting is conducted, and the procedures for counting absentee ballots.
    By and large, the current system of military and overseas voting is 
conducted by mail. Servicemembers and overseas citizens must request a 
ballot by mail, must be mailed a ballot for voting, and must return 
that ballot by mail for counting--a process that takes at least 45 
days. EAC has examined the current system of voting by researching 
available resources on the topic, talking to groups that represent 
affected voters, collecting information about voter participation 
through its 2004 UOCAVA Survey, and holding a public hearing on the 
topic in September 2006.
UOCAVA Voters Are Frequently Disenfranchised
    In every election, members of the military and U.S. citizens living 
overseas are not able to cast timely ballots because of the excessive 
amount of time that it takes to complete the voting process. According 
to an informal study of local election officials conducted by the 
National Defense Committee, disenfranchisement of overseas military 
voters for the 2004 presidential election approached 24 percent. 
Another study involving nonmilitary overseas voters indicated that they 
are also being disenfranchised due to problems with ballot 
distribution. According to the Overseas Vote Foundation, 19 percent of 
overseas voters who responded to a post-2004 Election Survey never 
received the ballots that they requested and another 24 percent 
received ballots too late to have them returned and counted. The EAC's 
2004 UOCAVA Survey generally supports the conclusion of these studies.
    We find this level of disenfranchisement unacceptable. A 
significant portion of this percentage is composed of overseas military 
voters who simply did not have enough time to vote either because they 
never received their ballot, received it too late, or couldn't return 
their ballot by the required deadline. Deployed military voters are 
moving targets rarely staying in one place for very long, which makes 
it extremely difficult to ensure that they are going to get a ballot in 
a timely fashion. This fact combined with the late primaries in many 
States and late absentee ballot distribution creates an almost 
impossible time frame for the voter to receive and return their ballot.
    The HAVA requires States to report the number of ballots 
transmitted to and returned by UOCAVA voters. It further requires that 
EAC develop a tool or form for the collection of that data. In 2004, 
EAC conducted the first comprehensive survey of the 50 States, the 
District of Columbia, and 4 territories regarding their practices in 
sending and receiving ballots from members of the military and overseas 
citizens. A comprehensive survey of this sort had never been 
administered in all U.S. election jurisdictions. In the past, FVAP has 
conducted a similar survey from a sample of election jurisdictions and 
extrapolated those responses to give a picture of how military and 
overseas voting was being conducted throughout the country.
    The survey showed that in every State there were more UOCAVA 
ballots sent than returned.

------------------------------------------------------------------------
                                                              UOCAVA
                                              UOCAVA         Absentee
                  State                      Absentee         Ballots
                                           Ballots Sent*     Returned*
------------------------------------------------------------------------
AK......................................          14,574           9,839
AL......................................           8,005           4,234
AR......................................           5,173           2,539
AZ......................................          12,046           8,282
CA......................................          62,468         No data
CO......................................          10,339           6,669
CT......................................           6,045           4,489
DC......................................           2,532           1,722
DE......................................           1,811           1,273
FL......................................         122,194          93,524
GA......................................          16,690          13,216
HI......................................           3,862           2,492
IA......................................           5,343           4,920
ID......................................           4,275           3,874
IL......................................          30,556          26,639
IN......................................           8,980           6,811
KS......................................           6,564           5,084
KY......................................           6,234           4,912
LA......................................          12,899           8,631
ME......................................           3,410           2,649
MD......................................          12,916          11,306
MA......................................         125,031         111,017
MI......................................          13,583           9,916
MN......................................          12,322           8,757
MS......................................           2,779           1,683
MO......................................          15,477           9,006
MT......................................           4,721           3,490
NE......................................           3,867           2,775
NV......................................           5,699           4,420
NH......................................           4,516           3,727
NJ......................................          14,256           8,475
NM......................................             519             348
NY......................................          55,183          43,699
NC......................................          18,063          11,996
ND......................................           1,587           1,117
OH......................................          14,527          11,768
OK......................................           7,682           5,737
OR......................................          18,752          14,307
PA......................................          36,051          30,042
RI......................................          21,498          19,046
SC......................................         168,814         157,990
SD......................................           3,823           3,288
TN......................................          19,635          16,609
TX......................................          88,847          66,374
UT......................................           4,598           3,817
VT......................................           1,733           1,340
VA......................................          29,646          24,463
WA......................................          37,198          30,446
WV......................................           4,712           3,745
WI......................................          10,275           7,146
WY......................................           3,123           2,594
AS......................................             326             284
GU......................................     No Response     No Response
PR......................................     No Response     No Response
VI......................................     No Response     No Response
------------------------------------------------------------------------
*Some State numbers may reflect total absentee ballots sent and
  received. (UOCAVA and Non-UOCAVA).

    EAC learned a great deal from conducting this survey in 2004. Most 
importantly, EAC found that many jurisdictions are not tracking how 
many ballots are sent to and received from members of the military or 
overseas citizens, as required by HAVA. This reality is due to a number 
of factors. First, some States do not distinguish between absentee 
ballots for these citizens and absentee ballots for state-side, 
nonmilitary voters. Second, some did not track the exact number of 
ballots that were transmitted to military and overseas voters. Third, 
States have different ways of defining key terms that affect the 
questions that were asked in the survey. Last, some States did not 
respond at all to the survey for one or more reasons. EAC produced a 
report based upon the responses that it received from the States in 
response to the 2004 survey. That report is available on EAC's Web 
site, http://www.eac.gov/docs/UOCAVASurvey%20Report%20-%20Final%203-3-
06.doc.
    Using experience gained from the 2004 survey, EAC worked with the 
National Association of Secretaries of State and other organizations of 
election officials to promote more accurate data collection in 2006. In 
addition, the EAC established a working group to help develop its 
survey questions for the 2006 Federal elections. EAC is currently 
taking comments on its draft survey, which is available on EAC's Web 
site, http://www.eac.gov/eav--survey.asp
Challenges for UOCAVA Voters
    Members of the military face unique challenges when attempting to 
cast a ballot. First, requests for ballots and ballots themselves must 
be transmitted using two mail systems, the U.S. Postal Service and 
either the Army Post Office or Fleet Post Office. Second, while ballot 
request forms are valid for 4 years, members of the military are 
frequently transferred, deployed or restationed. Third, for members of 
the Armed Services who are deployed in forward areas, access is 
sometimes limited to fax machines and computers that may expedite the 
voting process. On the contrary, U.S. citizens living overseas are 
often less transient and have access to technology that may be used to 
expedite the voting process. However, they still face using a slow 
international mail system to transmit requests for and actual ballots. 
In addition, State laws that require notarization of ballot request 
forms require overseas citizens to go to the U.S. Embassy in their 
countries. Unless the overseas citizen lives in the area of the 
Embassy, he or she must travel to the Embassy on a day when an 
appointment is available and wait to have the ballot request form 
notarized.
    On September 21, 2006, EAC conducted a public meeting in St. Louis, 
Missouri, where it focused on issues related to military and overseas 
voting. A panel of speakers including representatives of FVAP, 
organizations representing the armed services and overseas citizens, 
and State and local election officials testified about the problems and 
solutions surrounding registering, distributing ballots, and receiving 
voted ballots from this group of voters. The complete testimony for 
each of these panelists is available on the EAC Web site, http://
www.eac.gov/public--meeting--092106.asp. Several salient points were 
gleaned from these presentations:

        <bullet> The current voting process for military and overseas 
        citizens is not working;
        <bullet> Members of the military and overseas citizens have 
        very different issues, needs, and resources when it come to 
        voting;
        <bullet> The voting process requires an average of 45 days for 
        a military member or overseas citizen to request, obtain, vote, 
        and return a ballot; and
        <bullet> The current methods for reducing excessive delays in 
        requesting, transmitting, and receiving ballots from members of 
        the military and overseas citizens are merely temporary 
        solutions to a much larger problem.

    Representatives from FVAP and State and local election officials 
testified about the processes that are in place to reduce the amount of 
time needed to request, receive, vote, return, and count a UOCAVA 
ballot. The Department of Defense first introduced electronic 
transmission service (ETS) to the UOCAVA voting process in 1990. 
Military voters who were deployed to the Persian Gulf region could use 
a fax to return their ballots. Since that time, the Department of 
Defense has attempted several other projects to increase the use of 
technology in voting, including the ability to e-mail election 
materials and ballots. However, the receptiveness of the States to 
these methods has been limited:

        <bullet> 12 States allow a voter to submit a request for an 
        absentee ballot via e-mail;
        <bullet> 6 States allow UOCAVA voters to submit a registration 
        application via e-mail;
        <bullet> 12 States allow UOCAVA voters to receive a blank 
        ballot via e-mail;
        <bullet> 8 States allow UOCAVA voters to return a voted ballot 
        via e-mail;
        <bullet> 35 States allow UOCAVA voters to receive a blank 
        ballot via fax; and
        <bullet> 26 States allow UOCAVA voters to return a voted ballot 
        via fax.

    States often require a special order to permit the use of these 
forms of technology in UOCAVA voting. Thus, faxing ballots is only 
possible to forward areas or when a special order is issued by the 
State's governing authority. Other States have laws that are not 
consistent with the transient nature of military voters. For example, 
it is not uncommon to have ballots returned as undeliverable when a 
military voter has been deployed. Some States require that these 
voters' requests, generally valid for 4 years, be cancelled 
immediately. Many local election jurisdictions continue to require 
paper ballots, the U.S. Postal Service and manual signatures. These 
methods are aimed at maintaining the security and authenticity of the 
voting process, ensuring that the UOCAVA voter is, in fact, eligible.
    States set the dates for primary elections and the distribution of 
ballots. Oftentimes the dates of the primary election dictate the 
length of time that a UOCAVA voter has to request, receive, and return 
a voted ballot. Even States that have early primaries can have laws 
that dictate a late date to finalize a general election ballot. So, in 
States with late primaries and States that finalize their ballots close 
to a general election, UOCAVA voters have shortened and often times 
impossible windows in which to participate in a general election. In 
locations where disputes over the names of candidates on the ballot are 
ongoing, the printing of ballots can be further delayed until the suits 
are resolved. When delayed printing of ballots impacts the ability to 
timely transmit UOCAVA ballots, the Department of Justice has had to 
intervene with the States to extend the dates when UOCAVA ballots can 
be received. With a UOCAVA voting process that takes an average of 45 
days to complete, States that continue to hold late primary elections 
or finalize their ballots less than 55 days before the general election 
make it very difficult for UOCAVA voters to receive a ballot, much 
less, vote. State laws also vary on when ballots must be received in 
order to be counted. Some States require all UOCAVA ballots to be 
present on Election Day, while others permit the counting of these 
ballots even if they are received several days after the election. 
Because UOCAVA ballots are transmitted postage-free, it is often 
difficult for States to determine when the ballot was actually sent.
Proposed Changes to UOCAVA Voting
    EAC is working to find solutions. In September 2004, the EAC in 
conjunction with FVAP released a report on the ``Best Practices for 
Facilitating Voting by U.S. Citizens covered by UOCAVA.'' The EAC 
recognizes that UOCAVA ballots are sent and received by the 6700 local 
election authorities in the United States, and it is there where UOCAVA 
voters must ultimately be served. Each local election jurisdiction is 
also overseen by a State election authority that has certain 
responsibilities under State and Federal law to serve the voters in 
their State. Thus, this report represents a list of suggestions made to 
the States to help them and their local election authorities better 
serve UOCAVA voters across the world.
    First, the EAC recommended the mailing of absentee ballots at least 
45 days prior to the deadline for receipt of voted absentee ballots. 
Studies have shown that 45 days is the ideal length of time for voters 
to be sent, receive, and return the ballot. While many States allow for 
this 45-day period, a significant number do not mail ballots out until 
30 days prior to the election. Inadequate ballot transit time through 
the mail is the primary obstacle to timely delivery of absentee ballots 
to UOCAVA voters. In order to meet this 45-day timeline, States should 
consider moving up their primary election date. In several States the 
primary election is at such a late date that it is impossible to 
create, print, and send the ballots for the general election 45 days 
prior to the election.
    To further combat this problem of ballot access States should 
provide a State write-in absentee Ballot to ensure UOCAVA citizens 
without access to regular mail service to cast a ballot. States should 
consider automatically mailing these write-in absentee ballots if 
regular ballots are not available at least 45 days in advance of an 
election.
    Second, States should expand the use of fax and e-mail to 
distribute absentee ballots to overseas voters more quickly. The ease 
and accessibility of e-mail is ideal for UOCAVA voters particularly 
those military personnel on the frontlines who often only have access 
to the internet and only for a limited time.
    Also, States need to continue to work with local post offices to 
speed up the ballot distribution process in order to further increase 
the amount of time overseas voters have to submit their ballots.
    Third, States need to perform an internal survey to ensure that 
local jurisdictions are in compliance with State law for mailing 
absentee ballots to UOCAVA citizens. In conjunction with this internal 
survey States need to ensure that local election offices are aware of 
UOCAVA issues arising in their jurisdiction. FVAP offers training 
sessions for local election officials at State conferences, as well as 
providing a special section on their Web site for local election 
officials to reference. FVAP also distributes a monthly memo to State 
and county election officials on UOCAVA-related issues.
    The EAC also recommended that local jurisdictions create a specific 
point of contact for UOCAVA voters to take their questions and concerns 
to. This would allow local jurisdictions to better serve UOCAVA voters 
while keeping track of UOCAVA specific issues that arise.
    Fourth, States need to prepare a UOCAVA voter guide for publication 
on their Web site and in hard copy to distribute to voters. This does 
not need to be an expensive, time-intensive voter guide. It can be as 
simple as a single information page, like the ones used in Minnesota 
and Nebraska. The guide needs to simply provide jurisdiction-specific 
UOCAVA procedures and local election official contact information. 
States also need to update their election Web sites to include 
procedures for UOCAVA citizens to follow specific to that State. This 
is essential because often for overseas voters the internet is the 
fastest and most accessible source of information.
    Finally, States that require postmarking on the ballot return 
envelope should consider using the date the voter provides on the 
envelope with the voter's signature as evidence of when the voter cast 
the ballot. If necessary the State may require the voter to sign an 
oath attesting to the truth and accuracy of the information provided. 
This will eliminate the problem of a ballot return envelope not being 
properly postmarked or the postmark being difficult to read and 
therefore possibly discarded or not counted.

               THE FUTURE OF MILITARY AND OVERSEAS VOTING

    The current methods suggested or in place to reduce the amount of 
time that it takes to request, receive, cast, and return a ballot do 
not address the root of the problem. While electronically transmitted 
ballots may save time, this does not address the time involved in 
requesting or returning that ballot. Similarly, electronically 
transmitting ballots does not address the fact that the transient 
nature of military life makes finding the voter complicated. The 
ability to return a ballot by fax may also save time in the voting 
process, but voters who use this method forfeit the privacy of their 
ballot.
    The implementation of technology, alone, will not solve the 
problems of military and overseas citizen voting. This is a complex 
problem that requires rethinking the way that we as elected and 
election officials serve this important constituency, the way that we 
use available resources, and the ways that we can leverage technology 
to create better solutions. The Department of Defense and Department of 
State already have vast resources in place in countries all over the 
world. For example, every military unit has a voting assistance 
officer. Similarly, there are Embassies in virtually every country with 
local officials, called wardens, in districts of those countries.
    Every day financial institutions around the world use secure 
technology to transmit billions of dollars. The U.S. military uses 
secure technology to transmit sensitive and, even, classified 
information. With the availability of these resources and existing and 
strategically located personnel we could do more to ensure that UOCAVA 
voters have the ability to participate in U.S. elections.
    EAC has contracted for a study of internet voting and the 
transmission and receipt of absentee ballots for UOCAVA voters. This 
study will include reviewing the practices of States and local 
jurisdictions that use technology to transmit or accept ballots and may 
allow internet voting. In addition, EAC will survey UOCAVA voters who 
have participated in some form of electronic voting. Through this study 
we hope to more fully understand the problems, resources and potential 
solutions involved in military and overseas citizen voting.
    EAC has also been tasked with developing standards for Internet 
voting that Department of Defense can use in developing an Internet-
based voting system for UOCAVA voters. Introducing technology seems 
like a simple solution to the problem; however there will be 
substantial resistance to a technology-only fix for military and 
overseas voting. It is important to remember that segments of our 
society have a healthy distrust of the security of electronic voting, 
particularly when voting systems or methods are connected to the 
Internet. Thus, it is critical that we address issues such as how an 
Internet-based voting system will provide confidence to the public that 
it is not only secure, but also that the person casting the ballot 
using that system is an eligible voter.

                               CONCLUSION

    Over the past 4 years, significant changes have been made to our 
election administration system. New voting systems have been purchased 
and implemented. Each State has adopted a single list of registered 
voters to better identify those persons who are eligible to vote. 
Provisional voting has been applied across all 50 States, the District 
of Columbia, and 4 territories. However, one thing has not changed. 
Elections are a human function at home or overseas. There are people 
involved at every level of the election process, from creating the 
ballots, to transmitting the ballots, to casting the votes.
    HAVA contemplated the need to modernize election administration, 
and we have seen progress serving domestic voters. However, we must 
turn that same level of attention to serving voters who protect the 
democracy that we cherish by ensuring that they can participate in our 
elections.
    Mr. Chairman, thank you for the opportunity to address the 
committee today. I will be happy to answer any questions that you may 
have.

    Senator Dayton. Thank you.
    Mr. Stewart, welcome.
    Mr. Stewart. Good morning, Mr. Chairman.
    Senator Dayton. Good morning, sir. Please proceed.

     STATEMENT OF DEREK B. STEWART, DIRECTOR, MILITARY AND 
  DEPARTMENT OF DEFENSE CIVILIAN PERSONNEL ISSUES, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Stewart. Thank you for the invitation to be here today 
to discuss military voting.
    The GAO has reviewed DOD's voting program twice. In the 
aftermath of the 2000 presidential election, Congress asked us 
to review DOD's military and overseas absentee voting program. 
Based on this review, we issued a report in September 2001. The 
report contained several recommendations, and DOD agreed or 
partially agreed with all of our recommendations.
    Following the 2004 presidential election, Congress again 
asked us to review DOD's efforts to facilitate absentee 
military voting. I should note, we have undertaken a third 
review, which will focus on DOD's long-term plans for 
electronic voting. So, we haven't reviewed that piece that we 
are focusing on today, but we have work underway.
    Today, I would just like to briefly touch on three areas. 
How DOD's efforts to facilitate absentee voting differed 
between the 2000 and 2004 presidential election; actions taken 
by DOD to respond to our recommendations in the 2001 report; 
and the remaining challenges related to absentee voting.
    For the 2004 presidential election, our review showed that 
DOD expanded its efforts beyond what was taken for the 2000 
election. Among other things, DOD conducted 100 more training 
workshops; provided online training for VAOs; improved the 
access to their Web site for voting information; and 
distributed more voting materials. These are just some of the 
activities that they expanded.
    We heard Dr. Chu say that the result is what counts and 
that the voting for uniformed servicemembers was up 16 percent. 
We at GAO would have liked to have seen a larger response rate 
to the post-election surveys. For uniform servicemembers there 
was a 27-percent response rate, so we would just urge that the 
results be interpreted with caution there.
    In our 2001 report, we recommended, and DOD took corrective 
actions to assist the Services in revising their voting 
guidance; improving oversight of installation voting assistance 
programs; and, increasing command emphasis on voter education 
and awareness. These were huge steps, Mr. Chairman, and DOD 
deserves a lot of credit for taking those actions.
    Despite these improvements, our limited visits during our 
most recent work to installations showed that the level of 
voting assistance continued to vary. Because the VAO role is a 
collateral duty and VAO's understanding and interest in voting 
differs, we believe that some variance in voting assistance may 
always exist. It's not going to be an exact science.
    On the remaining challenges related to absentee voting, we 
believe there are two, and we've talked about both of them 
today. Simplifying and standardizing the absentee voting 
process which involves working with the States, and 
implementing a secure electronic registration and voting 
system. DOD, through it's legislative initiatives program, has 
encouraged the States to simplify and standardize this multi-
step absentee voting process. Of the remaining 9 DOD 
initiatives, 21 States have agreed to 1 or more. Iowa is the 
only State that has agreed to all nine. However, DOD is limited 
in its ability to affect States' absentee voting procedures 
because it lacks enforcement authority. So, it really is an 
effort that the States will just have to come along.
    The second challenge to absentee voting, implementing a 
secure electronic registration and voting system, is a daunting 
challenge, Mr. Chairman. For the 2004 election you have heard 
today that DOD did invest $26 million into an internet-based 
registration and voting system only to have to shut it down due 
to potential security problems. There is little doubt that 
internet voting would increase the convenience of voting and 
add speed and precision to vote counts. However, security is 
the primary technical challenge for internet voting, and 
addressing this challenge adequately is vital for public 
confidence.
    With that, Mr. Chairman, I conclude my remarks and I'd be 
happy to take your questions. Thank you.
    [The prepared statement of Mr. Stewart follows:]

                 Prepared Statement by Derek B. Stewart

    Mr. Chairman and members of the committee: I appreciate the 
opportunity to participate in today's hearing on military voting and 
the Federal Voting Assistance Program (FVAP). The 2000 presidential 
election brought to light concerns about a number of issues, including 
absentee voting by members of the military and civilians living 
overseas. The Uniformed and Overseas Citizens Absentee Voting Act 
(UOCAVA) established that members of the U.S. military, their 
dependents of voting age, and American citizens no longer maintaining a 
permanent residence in the United States are eligible to participate by 
absentee ballot in all Federal elections. The act covers more than 6.5 
million people, including approximately 3.7 million overseas citizens 
not affiliated with the government (about 2 million of whom are of 
voting age), 1.4 million military servicemembers, and 1.3 million 
military dependents of voting age.
    As requested, my testimony today will focus on absentee voting for 
military servicemembers. I will address: (1) how FVAP's efforts to 
facilitate absentee voting by military personnel differed between the 
2000 and 2004 presidential elections, (2) actions taken by the 
Department of Defense (DOD) in response to prior GAO recommendations on 
absentee voting, and (3) remaining challenges related to military 
absentee voting. Mr. Chairman, we should also note that we have just 
begun work to assess FVAP's long term plans to implement and expand 
electronic voting. Upon completion of this work early next year, we 
will report the results to Congress.
    In preparing for this testimony, we drew extensively from our 
published work on the election process and absentee voting for military 
servicemembers.\1\ We also identified recent changes to DOD voting 
guidance that discusses the electronic transmission of voting 
materials. All the work on which this testimony is based was performed 
in accordance with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \1\ See appendix I for a list of related GAO reports.
---------------------------------------------------------------------------
                            RESULTS IN BRIEF

    For the 2004 presidential election, FVAP expanded its efforts 
beyond those taken for the 2000 election to facilitate absentee voting 
by military personnel. For example, FVAP distributed more absentee 
voting materials and improved the accessibility of and added more 
election-related links to its Web site, which includes voting 
information. FVAP also conducted more voting training workshops than it 
did for the 2000 election, conducting 164 workshops rather than the 62 
workshops conducted for the 2000 election, and provided an online 
training course for Voting Assistance Officers (VAOs). In addition, 
FVAP designed an electronic version of the Federal Write-in Absentee 
Ballot--an emergency ballot accepted by all States and Territories--
although the ballot's availability was not announced until a few weeks 
before the election. FVAP used data from its postelection surveys to 
assess its efforts for the 2004 election. FVAP reported increased voter 
participation rates, which it attributed to an effective voter 
information and education program. However, in light of low survey 
response rates, FVAP's estimates and conclusions should be interpreted 
with caution.
    DOD has taken actions in response to our prior recommendations 
regarding voting assistance to servicemembers. In 2001, we recommended 
that DOD revise its voting guidance, improve program oversight, and 
increase command emphasis to reduce the variance in voting assistance 
to military servicemembers. In 2001, we reported that implementation of 
the Federal voting assistance program by DOD was uneven due to 
incomplete service guidance, lack of oversight, and insufficient 
command support. Prior to the 2004 presidential election, DOD 
implemented corrective actions that addressed our recommendations. 
Specifically, the Services revised their voting guidance and enhanced 
oversight of the military's voting assistance program, and emphasis on 
voting education and awareness increased throughout the top levels of 
command within DOD. However, the level of assistance continued to vary 
at the installations we visited. Because the VAO role is a collateral 
duty and VAOs' understanding and interest in the voting process differ, 
some variance in voting assistance may always exist. DOD plans to 
continue its efforts to improve absentee voting assistance.
    Despite the efforts of DOD and the States, our April 2006 report 
identified two major challenges that remain in providing voting 
assistance to military personnel, which are: simplifying and 
standardizing the absentee voting process and developing and 
implementing a secure electronic registration and voting system. FVAP 
attempted to make the absentee voting process easier by encouraging 
States to simplify the multi-step process and standardize their 
absentee voting requirements. FVAP's Legislative Initiatives program 
encouraged States to improve the absentee voting process for military 
personnel by adopting changes such as: (1) removing the notary 
requirement on election materials, and (2) allowing the use of 
electronic transmission of election materials. However, FVAP is limited 
in its ability to affect State voting procedures because it lacks the 
authority to require States to take action on absentee voting 
initiatives. Developing and implementing a secure electronic 
registration and voting system, which would likely improve the timely 
delivery of ballots and increase voter participation, has proven to be 
a challenging task for FVAP. FVAP has not been able to develop a system 
that would protect the security and privacy of absentee ballots cast 
over the Internet, despite conducting a small Internet voting project 
during the 2000 election and developing an electronic registration and 
voting experiment for the 2004 election. In both cases, security 
concerns prevented expanded use of these projects. Communications 
technologies, such as faxing, e-mail, and the Internet, have been used 
to improve communication between local jurisdictions and voters. For 
example, for the 2004 election, FVAP's Voting Assistance Guide showed 
that the States allowed some form of electronic transmission of certain 
voting materials.

                               BACKGROUND

    The U.S. election system is highly decentralized and based upon a 
complex interaction of people (election officials and voters), 
processes, and technology. Voters, local election jurisdictions, 
States,\2\ and the Federal Government all play important roles in 
ensuring that ballots are successfully cast in an election. The 
elections process within the United States is primarily the 
responsibility of the individual States and their election 
jurisdictions. States have considerable discretion in how they organize 
the elections process and this is reflected in the diversity of 
processes and deadlines that States have for voter registration and 
absentee voting, including diversity in the processes and deadlines 
that apply to military voters. Each State has its own election system 
with a somewhat distinct approach. Within each of these 55 systems, the 
guidelines and procedures established for local election jurisdictions 
can be very general or specific. Even when imposing requirements, such 
as statewide voter registration systems and provisional voting on the 
States in the Help America Vote Act of 2002,\3\ Congress left States 
discretion in how to implement those requirements and did not require 
uniformity.
---------------------------------------------------------------------------
    \2\ Throughout this testimony, States also include the District of 
Columbia, the Commonwealth of Puerto Rico, Guam, the Virgin Islands, 
and American Samoa.
    \3\ Pub. L. No. 107-252, Sec. 706 (2002).
---------------------------------------------------------------------------
    Executive Order 12642, dated June 8, 1988, designated the Secretary 
of Defense or his designee as responsible for carrying out the Federal 
functions under UOCAVA. UOCAVA requires the presidential designee to: 
(1) compile and distribute information on State absentee voting 
procedures, (2) design absentee registration and voting materials, (3) 
work with State and local election officials in carrying out the act, 
and (4) report to Congress and the President after each presidential 
election on the effectiveness of the program's activities, including a 
statistical analysis on UOCAVA voter participation. DOD Directive 
1000.4, dated April 14, 2004, is DOD's implementing guidance for the 
Federal Voting Assistance Program, and it designated the Under 
Secretary of Defense for Personnel and Readiness (USD P&R) as 
responsible for administering and overseeing the program. For 2004, 
FVAP had a full-time staff of 13 and a fiscal year budget of 
approximately $6 million. FVAP's mission is to: (1) inform and educate 
U.S. citizens worldwide of their right to vote; (2) foster voting 
participation; and (3) protect the integrity of and enhance the 
electoral process at the Federal, State, and local levels.
    DOD Directive 1000.4 also sets forth DOD and Service roles and 
responsibilities in providing voting education and assistance. In 
accordance with the directive, FVAP relies heavily upon the military 
services for distribution of absentee voting materials to military 
servicemembers. According to the DOD directive, each military service 
is to appoint a senior service voting representative, assisted by a 
Service voting action officer, to oversee the implementation of the 
Service's voting assistance program. The directive also States that the 
military services are to designate trained VAOs at every level of 
command to provide voting education and assistance to servicemembers 
and their eligible dependents. One VAO on each military installation 
should be assigned to coordinate voting efforts conducted by VAOs in 
subordinate units and tenant commands. Where possible, installation 
VAOs should be of the civilian rank GS-12 or higher, or officer pay 
grade O-4 or higher. In accordance with the DOD directive, commanders 
designate persons to serve as VAOs. Serving as a VAO is a collateral 
duty, to be performed along with the servicemember's other duties.

 DIFFERENCES IN FVAP'S EFFORTS BETWEEN THE 2000 AND 2004 PRESIDENTIAL 
                               ELECTIONS

    For the 2004 presidential election, FVAP expanded its efforts 
beyond those taken for the 2000 election to provide military personnel 
tools needed to vote by absentee ballot. FVAP distributed more absentee 
voting materials and improved the accessibility of its Web site, which 
includes voting information. Also, FVAP conducted 102 more voting 
training workshops for its VAOs than it did for the 2000 election. FVAP 
also provided an online training course for them. FVAP also designed an 
electronic version of the Federal Write-in Absentee Ballot--an 
emergency ballot accepted by all States and territories--although its 
availability was not announced until a few weeks before the election. 
In assessing its efforts for the 2004 election, using data from its 
postelection surveys, FVAP attributed increased voter participation 
rates to an effective voter information and education program. However, 
in light of low survey response rates, FVAP's estimates and conclusions 
should be interpreted with caution.
FVAP Distributed More Voting Materials and Improved Access to Its Web 
        Site
    In preparing for the 2004 election, FVAP distributed more absentee 
voting materials and improved the accessibility of its Web site. For 
the 2000 election, we reported that voting materials such as the 
Federal Postcard Application (FPCA)--the registration and absentee 
ballot request form for UOCAVA citizens \4\--were not always available 
when needed. DOD officials stated that they had enough 2004 election 
materials for their potential absentee voters. Each Service reported 
meeting the DOD requirement of 100 percent in-hand delivery of FPCAs to 
each servicemember by January 15.
---------------------------------------------------------------------------
    \4\ This includes members of the United States military, their 
dependents of voting age, and American citizens no longer maintaining 
permanent residence in the United States.
---------------------------------------------------------------------------
    After the 2000 presidential election, FVAP took steps to make its 
Web site more accessible to UOCAVA citizens worldwide by changing 
security parameters surrounding the site.\5\ According to FVAP, prior 
to the 2004 election, its Web site was within the existing DOD ``.mil'' 
domain, which includes built-in security firewalls. Some overseas 
Internet service providers were consequently blocked from accessing 
this site because hackers were attempting to get into the DOD system. 
As a result, FVAP moved the site out of the DOD ``.mil'' domain to a 
less secure domain. In September 2004, FVAP issued a news release 
announcing this change and provided a list of Web site addresses that 
would allow access to the site.
---------------------------------------------------------------------------
    \5\ http://www.fvap.gov/.
---------------------------------------------------------------------------
    FVAP also added more election-related links to its Web site to 
assist UOCAVA citizens in the voting process. The Web site (which FVAP 
considers one of its primary vehicles for disseminating voting 
information and materials) provides downloadable voting forms and links 
to all of FVAP's informational materials, such as the Voting Assistance 
Guide, Web sites of Federal elected officials, and State election 
sites. It also contains contact information for FVAP and the military 
departments' voting assistance programs. Although FVAP provided more 
resources to UOCAVA citizens concerning absentee voting, it is 
ultimately the responsibility of the voter to be aware of and 
understand these resources, and to take the actions needed to 
participate in the absentee voting process.
FVAP Increased Absentee Voting Training Opportunities
    For the 2004 election, FVAP increased the number of VAO training 
workshops it conducted to 164. The workshops were conducted at military 
installations around the world, including installations where units 
were preparing to deploy. In contrast, only 62 training workshops were 
conducted for the 2000 election. FVAP conducts workshops during years 
of Federal elections to train VAOs in providing voting assistance. As 
an alternative to its in-person voting workshops, in March 2004 FVAP 
added an online training course to its Web site. This course was also 
available on CD-ROM. According to FVAP, completion of the workshop or 
the online course meets a DOD requirement that VAOs receive training 
every 2 years. Installation VAOs are responsible for monitoring 
completion of training. The training gives VAOs instructions for 
completing voting forms, discusses their responsibilities, and informs 
them about the resources available to conduct a successful voting 
assistance program.
FVAP Designed an Electronic Absentee Ballot Form
    On October 21, 2004, just a few weeks prior to the election, FVAP 
issued a news release announcing an electronic version of the Federal 
Write-in Absentee Ballot, an emergency ballot accepted by all States 
and Territories. UOCAVA citizens who do not receive their requested 
State absentee ballots in time to meet State deadlines for receipt of 
voted ballots can use the Federal Write-in Absentee Ballot. The 
national defense authorization act for fiscal year 2005 amended the 
eligibility criteria for using the Federal Write-in Absentee Ballot.\6\ 
Prior to the change, a UOCAVA citizen had to be outside of the United 
States, have applied for a regular absentee ballot early enough to meet 
State election deadlines, and not have received the requested absentee 
ballot from the State. Under the new criteria, the Federal Write-in 
Absentee Ballot can also be used by military servicemembers stationed 
in the United States, as well as overseas.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 108-375, Sec. 566 (2004).
---------------------------------------------------------------------------
FVAP's Report of Higher Voter Participation Should Be Interpreted with 
        Caution
    On the basis of its 2004 post-election survey, FVAP reported higher 
voter participation rates among uniformed servicemembers in its 
quadrennial report to Congress and the President on the effectiveness 
of its 2004 voting assistance efforts. The report included a 
statistical analysis of voter participation and discussed experiences 
of uniformed servicemembers during the election, as well as a 
description of State and Federal cooperation in carrying out the 
requirements of UOCAVA. However, the low survey response rate raises 
concerns about FVAP's ability to project increased voter participation 
rates among military servicemembers.
    We reported in 2001 that some absentee ballots became disqualified 
for various reasons, including improperly completed ballot return 
envelopes, failure to provide a signature, or lack of a valid 
residential address in the local jurisdiction.\7\ We recommended that 
FVAP develop a methodology, in conjunction with State and local 
election jurisdictions, to gather nationally projectable data on 
disqualified military absentee ballots and reasons for their 
disqualification. In anticipation of gathering nationally projectable 
data, prior to the election, FVAP randomly selected approximately 1,000 
local election officials to receive an advance copy of the postelection 
survey so they would know what information to collect during the 
election to complete the survey. The survey solicited a variety of 
information concerning the election process and absentee voting, such 
as the number of ballots issued, received, and counted, as well as 
reasons for ballot disqualification. In FVAP's 2005 report, it cited 
the top two reasons for disqualification as ballots were received too 
late or were returned as undeliverable.
---------------------------------------------------------------------------
    \7\ GAO, Elections: Voting Assistance to Military and Overseas 
Citizens Should Be Improved, GAO-01-1026 (Washington, DC: Sept. 28, 
2001).
---------------------------------------------------------------------------
    FVAP reported higher participation rates for military 
servicemembers in the 2004 presidential election as compared with the 
rate reported for the 2000 election. FVAP attributed the higher voting 
participation rate to an effective voter information and education 
program that included command support and agency emphasis. State 
progress in simplifying absentee voting procedures and increased 
interest in the election were also cited as reasons for increased 
voting participation. However, a low survey response rate raises 
concerns about FVAP's ability to project participation rate changes 
among uniformed servicemembers. According to FVAP, while the 2004 
postelection survey was designed to provide national estimates, the 
survey experienced a low response rate, 27 percent. FVAP did not 
perform any analysis comparing those who responded to the survey with 
those who did not respond. Such an analysis would allow researchers to 
determine if those who responded to the survey are different in some 
way from those who did not respond. If it is determined that there is a 
difference between those who responded and those who did not, then the 
results cannot be generalized across the entire population of potential 
survey participants. In addition, FVAP did no analysis to account for 
sampling error. Sampling error occurs when a survey is sent to a sample 
of a population rather than to the entire population. While techniques 
exist to measure sampling error, FVAP did not use these techniques in 
their report. The practical difficulties in conducting surveys of this 
type may introduce other types of errors as well, commonly known as 
nonsampling errors. For example, errors can be introduced if: (1) 
respondents have difficulty interpreting a particular question, (2) 
respondents have access to different information when answering a 
question, or (3) those entering raw survey data make keypunching 
errors.

           ACTIONS TAKEN IN RESPONSE TO PRIOR RECOMMENDATIONS

    DOD has taken actions in response to our prior recommendations 
regarding voting assistance to servicemembers. In 2001, we recommended 
that DOD revise its voting guidance, improve program oversight, and 
increase command emphasis to reduce the variance in voting assistance 
to military servicemembers. In 2001, we reported that implementation of 
the Federal Voting Assistance Program by DOD was uneven due to 
incomplete service guidance, lack of oversight, and insufficient 
command support. Prior to the 2004 presidential election, DOD 
implemented corrective actions, such as revising voting guidance and 
increasing emphasis on voting education at top command levels to 
address our recommendations. However, the level of assistance continued 
to vary at the installations we visited. Because the VAO role is a 
collateral duty and VAOs' understanding and interest in the voting 
process differ, some variance in voting assistance may always exist. 
DOD plans to continue its efforts to improve absentee voting 
assistance.
The Services Revised Their Voting Guidance and Enhanced Program 
        Oversight
    In response to our recommendations in 2001, the Services revised 
their voting guidance and enhanced oversight of the military's voting 
assistance program. In 2001, we reported that the Services had not 
incorporated all of the key requirements of DOD Directive 1000.4 into 
their own voting policies, and that DOD exercised very little oversight 
of the military's voting assistance programs. These factors contributed 
to some installations not providing effective voting assistance. We 
recommended that the Secretary of Defense direct the Services to revise 
their voting guidance to be in compliance with DOD's voting 
requirements, and provide for more voting program oversight through 
inspector general reviews and a lessons-learned program.
    Subsequent to DOD's revision of Directive 1000.4, the Services 
revised their guidance to reflect DOD's voting requirements. In the 
2002-2003 Voting Action Plan, FVAP implemented a best practices program 
to support the development and sharing of best practices used among 
VAOs in operating voting assistance programs. FVAP included guidance on 
its Web site and in its Voting Assistance Guide on how VAOs could 
identify and submit a best practice. Identified best practices for all 
the Services are published on the FVAP Web site and in the Voting 
Information News--FVAP's monthly newsletter to VAOs.
Top-level Command Emphasis Increased
    For the 2004 election, emphasis on voting education and awareness 
increased throughout the top levels of command within DOD. In 2001, we 
reported that lack of DOD command support contributed to the mixed 
success of the Services' voting programs and recommended that the 
Senior Service Voting Representatives monitor and periodically report 
to FVAP on the level of installation command support. To ensure command 
awareness and involvement in implementing the voting assistance 
program, in late 2003, the USD P&R began holding monthly meetings with 
FVAP and the Senior Service Voting Representatives and discussed the 
status of Service voting assistance programs. In 2001, we also reported 
that some installations and units did not appoint VAOs as required by 
DOD Directive 1000.4. In March 2004, the Secretary of Defense and 
Deputy Secretary of Defense issued memorandums to the Secretaries of 
the military departments, the Chairman of the Joint Chiefs of Staff, 
and Commanders of the Combatant Commands, directing them to support 
voting at all levels of command. These memoranda were issued to ensure 
that voting materials were made available to all units and that VAOs 
were assigned and available to assist voters. The Chairman of the Joint 
Chiefs of Staff also recorded a DOD-wide message regarding the 
opportunity to vote and ways in which VAOs could provide assistance. 
This message was used by FVAP in its training presentations and was 
distributed to military installations worldwide. During our review, we 
found that each Service reported to DOD that it assigned VAOs at all 
levels of command.
    Voting representatives from each Service used a variety of 
servicewide communications to disseminate voting information and 
stressed the importance of voting. For example, the Marine Corps 
produced a videotaped interview stressing the importance of voting that 
was distributed throughout the Marine Corps. The Army included absentee 
voting information in a pop-up message that was included on every 
soldier's e-mail account. In each Service, the Voting Action Officer 
sent periodic messages to unit VAOs, reminding them of key voting dates 
and areas to focus on as the election drew closer. Throughout the 
organizational structure, these VAOs contacted servicemembers through 
servicewide e-mail messages, which contained information on how to get 
voting assistance and reminders of voting deadlines. According to 
Service voting representatives, some components put together media 
campaigns that included reminders in base newspapers, billboards, and 
radio and closed circuit television programs. They also displayed 
posters in areas frequented by servicemembers (such as exchanges, 
fitness centers, commissaries, and food court areas).

        REMAINING CHALLENGES RELATED TO ABSENTEE MILITARY VOTING

    Despite the efforts of DOD and the States, our April 2006 report 
identified two major challenges that remain in providing voting 
assistance to military personnel, which are:

        <bullet> simplifying and standardizing the timeconsuming and 
        multistep absentee voting process, which includes different 
        requirements and time frames for each State; and
        <bullet> developing and implementing a secure electronic 
        registration and voting system.
Simplifying and Standardizing the Absentee Voting Process
    FVAP attempted to make the absentee voting process easier by 
encouraging States through its Legislative Initiatives program, to 
simplify the multi-step process and standardize their absentee voting 
requirements. Many military personnel we spoke to after the 2000 and 
2004 general elections expressed concerns about the varied State and 
local requirements for absentee voting and the short timeframe provided 
by many States and local jurisdictions for sending and returning 
ballots. FVAP's Legislative Initiatives program encouraged States to 
adopt changes to improve the absentee voting process for military 
personnel. However, the majority of States have not agreed to any new 
initiatives since FVAP's 2001 report to Congress and the President on 
the effectiveness of its efforts during the 2000 election. FVAP is 
limited in its ability to affect State voting procedures because it 
lacks the authority to require States to take action on absentee voting 
initiatives. In the 1980s, FVAP began its Legislative Initiatives 
program with 11 initiatives, and as of December 2005 it had not added 
any others. Two of the 11 initiatives: (1) accept one FPCA as an 
absentee ballot request for all elections during the calendar year, and 
(2) removal of the not-earlier-than restrictions for registration and 
absentee ballot requests \8\--were made mandatory for all States by the 
National Defense Authorization Act for Fiscal Year 2002 and the Help 
America Vote Act of 2002, respectively.\9\ According to FVAP, this 
action was the result of State election officials working with 
congressional lawmakers to improve the absentee voting process.
---------------------------------------------------------------------------
    \8\ Not-earlier-than restriction refers to States not accepting an 
FPCA if it arrives before a specified date.
    \9\ Pub. L. No. 107-107, Sec. 1606 (2001) and Pub. L. No. 107-252, 
Sec. 706 (2002), respectively.
---------------------------------------------------------------------------
    Between FVAP's 2001 and 2005 reports to Congress and the President, 
the majority of the States had not agreed to any of the remaining nine 
initiatives. Since FVAP's 2001 report, 21 States agreed to 1 or more of 
the 9 legislative initiatives, totaling 28 agreements. Table 1 shows 
the number of agreements with the initiatives since the 2001 report. 
According to FVAP records, one State withdrew its support for the 40- 
to 45-day ballot transit time initiative. Initiatives with the most 
State support were: (1) the removal of the notary requirement on 
election materials and (2) allowing the use of electronic transmission 
of election materials. We also found a disparity in the number of 
initiatives that States have adopted. For example, Iowa is the only 
State to have adopted all nine initiatives, while Vermont, American 
Samoa, and Guam have adopted only one initiative each.

    TABLE 1: NUMBER OF AGREEMENTS WITH FVAP'S LEGISLATIVE INITIATIVES
------------------------------------------------------------------------
                                                   Number of
                                                   States in
               FVAP Initiatives                    agreement     Change
                                               ----------------
                                                 2001    2005
------------------------------------------------------------------------
1. Allow a 40- to 45-day transit time between      42      41        -1
 the date the absentee ballot is mailed to the
 voter and the due date for the voted ballot
 to be returned...............................
2. Remove the notary requirement on any            49      50         1
 election materials...........................
3. Establish late registration procedures for      24      28         4
 persons recently separated from the uniformed
 services and citizens returning from overseas
 employment...................................
4. Provide for a special State write-in            27      27         0
 absentee ballot..............................
5. Incorporate reference to UOCAVA into State      33      37         4
 election code................................
6. Allow the use of electronic transmission of     48      49         1
 election materials...........................
7. Expand use of the Federal Write-in Absentee      7      12         5
 Ballot to include special, primary, and run-
 off elections, and allow the ballot to be
 used as a simultaneous registration
 application and ballot.......................
8. Provide emergency authority for absentee        11      16         5
 ballot handling to the State's chief election
 official during periods of declared emergency
9. Enfranchise citizens who have never resided    8 a      17         9
 in the United States or its territories......
                                               -------------------------
  Total.......................................                    28 b
------------------------------------------------------------------------
Source: GAO generated from FVAP data.
a Eight States agreed, but one State later withdrew support.
b Some States agreed to more than one initiative.

    The absentee voting process requires the potential voter to take 
the following five steps: (1) register to vote,\10\ (2) request an 
absentee ballot, (3) receive the ballot from the local election office, 
(4) correctly complete the ballot, and (5) return it (generally through 
the mail) in time to be counted for the election. (See fig. 1.) There 
are several ways for military servicemembers to accomplish these steps. 
Military voters must plan ahead, particularly when deployed during 
elections. Moreover, military voters require more time to transmit 
voting materials because of distance.
---------------------------------------------------------------------------
    \10\ In some States, registration may not be necessary to vote.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Military servicemembers are encouraged to use the Federal Postcard 
Application (FPCA) \11\ to register to vote and to request an absentee 
ballot. Servicemembers can obtain the FPCA from several sources, 
including the unit VAO, from the Internet via FVAP's Web site, or from 
their local election office. DOD Directive 1000.4, Federal Voting 
Assistance Program, requires the in-hand delivery of a FPCA to eligible 
voters and their voting age dependents by January 15 of each year. DOD 
encourages potential voters to complete and mail the FPCA early, in 
order to receive absentee ballots for all upcoming Federal elections 
during the year. Military mail and the U.S. postal service are the 
primary means for transmitting voting materials, according to 
servicemembers with whom we spoke.
---------------------------------------------------------------------------
    \11\ In all States and Territories, the FPCA serves as a valid 
request for registration and/or absentee ballot for those citizens 
entitled to use it regardless of whether they have registered prior to 
the submission of the FPCA.
---------------------------------------------------------------------------
    Knowing when to complete the first step of the election process can 
be challenging since each State has its own deadlines for receipt of 
FPCAs, and the deadline is different depending on whether or not the 
voter is already registered. For example, according to the Voting 
Assistance Guide, Montana required a voter that had not previously 
registered to submit an FPCA at least 30 days prior to the election. A 
voter who was already registered had to ensure that the FPCA was 
received by the County Election Administrator by noon on the day before 
the election. For Idaho voters, the FPCA had to be postmarked by the 
25th day before the election, if they were not registered. If they were 
registered, the County Clerk had to receive the FPCA by 5 p.m. on the 
6th day before the election. For Virginia uniformed services voters, 
the FPCA had to arrive not later than 5 days before the election, 
whether already registered or not. Using different deadlines for newly 
registered and previously registered voters to return their absentee 
ballots may have some administrative logic and basis. For example, the 
process of verifying the eligibility of a newly registered voter might 
take longer than the process for previously registered voters, and if 
there was some question about the registration information provided, 
the early deadlines provide some time to contact the voter and get it 
corrected.
    For the November 2004 general election, according to our site 
survey, nine States reported having absentee ballot deadlines for 
voters outside the United States that were more lenient than the ballot 
deadlines for voters inside the United States. Table 2 lists these nine 
States and the difference between the mail-in ballot deadline from 
inside the United States and the mail-in absentee ballot deadline from 
outside the United States.

  TABLE 2: STATES REPORTING DIFFERING MAIL-IN ABSENTEE BALLOT DEADLINES
    FROM INSIDE AND OUTSIDE THE UNITED STATES, NOVEMBER 2004 GENERAL
                                ELECTION
------------------------------------------------------------------------
                                   Mail-in absentee    Mail-in absentee
                                    ballot deadline     ballot deadline
              State                 from inside the    from outside the
                                     United States       United States
------------------------------------------------------------------------
Alaska..........................  10 days after       15 days after
                                   Election Day and    Election Day and
                                   postmarked by       postmarked by
                                   Election Day.       Election Day
Arkansas........................  Election Day......  10 days after
                                                       Election Day
Florida.........................  Election Day......  No later than 10
                                                       days after
                                                       Election Day if
                                                       postmarked or
                                                       signed and dated
                                                       by Election Day
                                                       (Federal races
                                                       only)
Louisiana.......................  1 day before        Election Day
                                   Election Day.
Maryland........................  1 day after         10 days after
                                   Election Day if     Election Day and
                                   postmarked before   postmarked before
                                   Election Day.       Election Day
Massachusetts...................  Election Day......  10 days after
                                                       Election Day and
                                                       postmarked by
                                                       Election Day
Ohio............................  Election Day......  10 days after
                                                       Election Day
Pennsylvania....................  4 days before       Absentee ballot
                                   Election Day.       deadline extended
                                                       per court order
                                                       for November 2004
                                                       general election
                                                       for not only
                                                       absentee ballots
                                                       from outside the
                                                       United States but
                                                       also for those
                                                       voters covered by
                                                       UOCAVA, including
                                                       domestic
                                                       uniformed
                                                       servicemembers,
                                                       who are
                                                       nonetheless
                                                       absent from the
                                                       place of
                                                       residence where
                                                       they are
                                                       otherwise
                                                       qualified to vote
Texas...........................  Election Day......  5 days after
                                                       Election Day
------------------------------------------------------------------------
Source: GAO 2005 survey of State election officials.

    Another challenge for military servicemembers in completing the 
FPCA is to know where they will be located when the ballots are mailed 
by the local election official. If the voter changes locations after 
submitting the FPCA and does not notify the local election official, 
the ballot will be sent to the address on the FPCA and not the voter's 
new location. This can be further complicated by a 2002 amendment to 
UOCAVA,\12\ which allowed military personnel to apply for absentee 
ballots for the next two Federal elections. If servicemembers request 
ballots for the next two Federal elections, they must project up to a 
4-year period where they will be located when the ballots are mailed. 
DOD recommended that military servicemembers complete an FPCA annually 
in order to maintain registration and receive ballots for upcoming 
elections.
---------------------------------------------------------------------------
    \12\ The Help America Vote Act of 2002 amended UOCAVA.
---------------------------------------------------------------------------
    After a valid FPCA has been received by the local election 
official, the next step for the voter is to receive the absentee 
ballot. Prior to mailing the ballot, the local election jurisdiction 
must process the FPCA. Based on one of our recent reports,\13\ local 
election jurisdictions reported encountering problems in processing 
FPCAs. For example, 39 percent of the jurisdictions received the FPCA 
too late to process--a problem also encountered with other State-
provided absentee ballot applications. An estimated 19 percent of local 
jurisdictions encountered the problem of receiving the FPCA too late to 
process more frequently than the other problems. Other reported 
problems with FPCAs included: (1) missing or inadequate voting 
residence address, (2) applied to wrong jurisdiction, (3) missing or 
inadequate voting mailing address, (4) missing or illegible signature, 
(5) application not witnessed, attested, or notarized, and (6) excuse 
for absence did not meet State law requirements.
---------------------------------------------------------------------------
    \13\ GAO, Elections: The Nation's Evolving Election System as 
Reflected in the November 2004 General Election, GAO-06-450 
(Washington, DC: June 6, 2006).
---------------------------------------------------------------------------
    The determination of when the State mails its ballots sometimes 
depends on when the State holds its primary elections. FVAP has an 
initiative encouraging a 40- to 45-day transit time for mailing and 
returning absentee ballots; however, 14 States have yet to adopt this 
initiative. During our focus group discussions, some servicemembers 
commented that they either did not receive their absentee ballot or 
they received it so late that they did not believe they had sufficient 
time to complete and return it in time to be counted.
    After the voter completes the ballot, the voted ballot must be 
returned to the local election official within time frames established 
by each State. As we reported in 2004, deployed military servicemembers 
face numerous problems with mail delivery, such as military postal 
personnel who were inadequately trained and initially scarce because of 
late deployments, as well as inadequate postal facilities, material-
handling equipment, and transportation assets to handle mail surge.\14\ 
In December 2004, DOD reported that it had taken actions to arrange for 
transmission of absentee ballot materials by Express Mail through the 
Military Postal Service Agency and the U.S. Postal Service. However, 
during our focus group discussions, servicemembers cited problems with 
the mail, such as it being a low priority when a unit is moving from 
one location to another; susceptibility of mail shipments to attack 
while in theater; and the absence of daily mail service on some 
military ships. For example, some servicemembers said that mail sat on 
the ships for as long as a week, waiting for pick up. Others stated 
that in the desert, mail trucks are sometimes destroyed during enemy 
attacks.
---------------------------------------------------------------------------
    \14\ GAO, Operation Iraqi Freedom: Longstanding Problems Hampering 
Mail Delivery Need to Be Resolved, GAO-04-484 (Washington, DC: Apr. 14, 
2004).
---------------------------------------------------------------------------
    Voters must also cope with registration requirements that vary when 
local jurisdictions interpret State requirements differently. We found 
variation in the counties we visited in several States as to how they 
implemented State laws and regulations, with some holding strictly to 
the letter of the law and others applying more flexibility in accepting 
registration applications and ballots. For example:

        <bullet> In Florida, officials in three counties told us they 
        allow registration of applicants who have never lived in the 
        county, while the fourth county said they require a specific 
        address where the applicant actually lived.
        <bullet> In New Jersey, officials in three counties said they 
        accepted any ballot that showed a signature anywhere on the 
        envelope while the fourth county disqualified any ballot that 
        did not strictly meet all technical requirements.

    Some local election officials in the States we visited took actions 
to help absentee voters comply with State and local voting requirements 
by tracking down missing information on the registration form or ballot 
envelope and ensuring that applications and ballots went to the right 
jurisdiction. However, local officials told us they must balance voting 
convenience with ensuring the integrity of the voting process. This 
balance often requires the exercise of judgment on the part of local 
election officials.

DEVELOPING AND IMPLEMENTING A SECURE ELECTRONIC REGISTRATION AND VOTING 
                                 SYSTEM

    Developing and implementing a secure electronic registration and 
voting system, which would likely improve the timely delivery of 
ballots and increase voter participation, has proven to be a 
challenging task for FVAP. Eighty-seven percent of servicemembers who 
responded to our focus group survey said they were likely to vote over 
the Internet if security was guaranteed. However, FVAP has not 
developed a system that would protect the security and privacy of 
absentee ballots cast over the Internet. For example, during the 2000 
presidential election, FVAP conducted a small proof of concept Internet 
voting project that enabled 84 voters to vote over the Internet. While 
the project demonstrated that it was possible for a limited number of 
voters to cast ballots online, FVAP's project assessment concluded that 
security concerns needed to be addressed before expanding remote (i.e., 
Internet) voting to a larger population. In 2001, we also reported that 
remote Internet-based registration and voting are unlikely to be 
implemented on a large scale in the near future because of security 
risks with such a system.\15\
---------------------------------------------------------------------------
    \15\ GAO-01-1026
---------------------------------------------------------------------------
    For the 2004 election, FVAP developed a secure registration and 
voting experiment. However, it was not used by any voters. The National 
Defense Authorization Act for Fiscal Year 2002 directed DOD to conduct 
an electronic voting experiment and gather data to make recommendations 
regarding the continued use of Internet registration and voting.\16\ In 
response to this requirement, FVAP developed the Secure Electronic 
Registration and Voting Experiment (SERVE), an Internet-based 
registration and voting system for UOCAVA citizens. The experiment was 
to be used for the 2004 election by UOCAVA citizens from seven 
participating States,\17\ with the eventual goal of supporting the 
entire military population, their dependents, and overseas citizens.
---------------------------------------------------------------------------
    \16\ Pub. L. No. 107-107, Sec. 1604 (2001).
    \17\ The seven States were Arkansas, Florida, Hawaii, North 
Carolina, South Carolina, Utah, and Washington.
---------------------------------------------------------------------------
    FVAP established a Security Peer Review Group, a group of 10 
computer election security experts, to evaluate SERVE. However, in 
January 2004, a minority report published by four members of the group 
publicly raised concerns about the security of the system. They 
suggested it be shut down due to potential security problems that left 
it vulnerable to cyber attacks. Furthermore, they cautioned against the 
development of future electronic voting systems until the security of 
both the Internet and the world's home computer infrastructure had been 
improved. Specifically, the report stated:

          The real barrier to success is not a lack of vision, skill, 
        resources, or dedication, it is the fact that, given the 
        current Internet and PC security technology, and the goal of a 
        secure, all-electronic remote voting system, the FVAP has taken 
        on an essentially impossible task.

    According to FVAP, after the minority group issued its report, the 
full peer review group did not issue a final report. Also, because DOD 
did not want to call into question the integrity of votes that would 
have been cast via SERVE, they decided to shut it down prior to its use 
by any absentee voters. FVAP could not provide details on what it 
received for the approximately $26 million that it invested in SERVE. 
FVAP officials stated that they received some services from the 
contractor, but no hardware or other equipment.
    Communications technologies, such as faxing, e-mail, and the 
Internet, can improve communication between local jurisdictions and 
voters during some portions of the election process. For example, 
FVAP's Electronic Transmission Service (ETS) has been in existence 
since the 1990s, and is used by UOCAVA citizens and State and local 
officials to fax election materials when conditions do not allow for 
timely delivery of materials through the mail. For the November 2004 
general election, FVAP's Voting Assistance Guide showed that the States 
allowed some form of electronic transmission of the FPCA, blank 
absentee ballot and the voted ballot. However, it is important to note 
that of the 10,500 local government jurisdictions responsible for 
conducting elections nationwide, particular local jurisdictions might 
not offer all of the options allowed by State absentee ballot 
provisions. As shown in Table 3, for the November 2004 presidential 
election, 44 States allowed the FPCA to be faxed to the local election 
jurisdiction for registration and ballot request. In each of these 
States, the completed FPCA also had to be mailed to the local election 
jurisdiction. In one State, the completed FPCA had to be mailed or 
postmarked the same day that the FPCA was faxed. A smaller number of 
States allowed the blank absentee ballot to be faxed to the voter and 
an even smaller number of States allowed the voted ballot to be sent 
back to the local election jurisdiction. According to FVAP's records, 
in calendar year 2004 ETS processed 46,614 faxes, including 38,194 
FPCAs, 1,844 blank ballots to citizens, and 879 voted ballots \18\ to 
local election officials. Total costs to operate ETS in 2004 were about 
$452,000. According to FVAP's revised Voting Assistance Guide for 2006-
2007, only one additional State allowed the faxing of the FPCA for 
registration and ballot request. Table 3 also shows options allowed by 
each State and Territory for electronic transmission of election 
materials for the November 2006 election. Two additional States also 
allowed the faxing of the blank ballot.
---------------------------------------------------------------------------
    \18\ Voters sacrifice privacy for timeliness when they return 
completed ballots by fax.

    TABLE 3: OPTIONS ALLOWED BY STATES AND TERRITORIES FOR ELECTRONIC
  TRANSMISSION OF ELECTION MATERIALS FOR THE NOVEMBER 2004 AND NOVEMBER
                             2006 ELECTIONS
------------------------------------------------------------------------
                                     November 2004       November 2006
  Number of States that allowed  ---------------------------------------
           faxing of:                Yes       No        Yes       No
------------------------------------------------------------------------
FPCA for registering............       44        11        45        10
FPCA for ballot request.........       49         6        50         5
Blank ballot....................       31        24        33        22
Voted ballot....................       23        32        23        32
------------------------------------------------------------------------

    In September 2004, DOD implemented the Interim Voting Assistance 
System (IVAS), an electronic ballot delivery system, as an alternative 
to the traditional mail process. Although IVAS was meant to streamline 
the voting process, its strict eligibility requirements prevented it 
from being utilized by many military voters. IVAS was open to active 
duty servicemembers, their dependents, and DOD overseas personnel who 
were registered to vote. These citizens also had to be enrolled in the 
Defense Enrollment Eligibility Reporting System,\19\ and had to come 
from a State and county participating in the project. FVAP officials 
said the system was limited to DOD members because their identities 
could be verified more easily than those of nonmilitary overseas 
citizens. Voters would obtain their ballots through IVAS by logging 
onto www.MyBallot.mil and requesting a ballot from their participating 
local election jurisdiction. One hundred and eight counties in eight 
States and one Territory agreed to participate in IVAS; \20\ however, 
only 17 citizens downloaded their ballots from the site during the 2004 
election. According to FVAP, many States did not participate in IVAS 
for a variety of reasons including State legislative restrictions, 
workload surrounding regular election responsibilities and additional 
Help America Vote Act requirements, lack of technical capability, 
election procedural requirements and barriers, and unavailability of 
Internet access.
---------------------------------------------------------------------------
    \19\ The Defense Enrollment Eligibility Reporting System provides a 
means for quickly verifying and validating a person as eligible to 
receive military health care and other DOD benefits.
    \20\ The nine States and Territories were Kansas, Kentucky, 
Maryland, Mississippi, Montana, New Mexico, South Carolina, Virgin 
Islands, and Wisconsin.
---------------------------------------------------------------------------
    Despite low usage of the electronic initiatives and existing 
security concerns, we found that servicemembers and VAOs at the 
installations we visited strongly supported some form of electronic 
transmission of voting materials. During our focus group discussions, 
servicemembers stated that election materials for the 2004 presidential 
election were most often sent and received through the U.S. postal 
system. Servicemembers also commented that the implementation of a 
secure electronic registration and voting system could increase voter 
participation and possibly improve confidence among voters that their 
votes were received and counted. Additionally, servicemembers said that 
an electronic registration and voting system would improve the absentee 
voting process by providing an alternative to the mail process, 
particularly for those servicemembers deployed on a ship or in remote 
locations. However, at one location, some servicemembers were more 
comfortable with the paper ballot system and said that an electronic 
voting system would not work because its security could never be 
guaranteed.

                        CONCLUDING OBSERVATIONS

    The Federal Government, States, and local election jurisdictions 
have a shared responsibility to help increase military voters' 
awareness of absentee voting procedures and make the process easier 
while protecting its integrity. The election process within the United 
States is primarily the responsibility of the individual States and 
their election jurisdictions. Despite some progress by FVAP in 
streamlining the absentee voting process, absentee voting requirements 
and deadlines continue to vary from State to State. While it is 
ultimately the responsibility of the voter to understand and comply 
with these deadlines, varying State requirements can cause confusion 
among voters and VAOs about deadlines and procedures for registering 
and voting by absentee ballot. The ability to transmit and receive 
voting materials electronically provides military servicemembers 
another option to submit a ballot in time to participate in an 
election. Although State law may allow electronic transmission of 
voting materials, including voted ballots, the 10,500 local election 
jurisdictions must be willing and equipped to accommodate this 
technology. The integration of people, processes and technology are 
very important to the United States' election system.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other members of the committee may 
have at this time.

    Senator Dayton. Thank you, each of you, for very 
informative testimony. I think, Secretary Chu, your noted 
improvements in the percentage of those who have voted is 
important progress. We'd always like to see better, but I think 
that's real progress that should be noted.
    I do recognize the discrepancy between your own statements, 
and I want to see if this is an apples-to-apples comparison. 
Those who could not vote you cited as 6 percent and, Chairman 
DeGregorio, you cited that as 23 percent? No, 27 percent.
    Mr. DeGregorio. 24 percent.
    Senator Dayton. 24 percent, I'm sorry, you're right, 24 
percent. Can you reconcile that? Are you both measuring the 
same way or describing the same situation here or not?
    Dr. Chu. These are two different metrics.
    Senator Dayton. Okay.
    Dr. Chu. Our results are based on a survey of our various 
populations, the military itself, Federal civilians overseas, 
and Americans overseas, not who are, however, part of the 
Federal Government.
    Senator Dayton. When they say--so I'm clear, you say they 
could not vote. What does that mean in practical terms?
    Dr. Chu. What that meant was, it was an answer to a 
question that we asked: ``Did you vote?'' If they said, ``No,'' 
we asked, ``Did you attempt to vote?'' So the numbers I cited 
for the 6 percent or so in the 2004 election in the military 
column who attempted, but could not vote. That's from their 
answers to that survey, so ours is based on a survey of the 
voting population.
    The 20-some percent number comes out of what, as I 
understand it, the EAC was directed by Congress to do. What 
others have done on an ad hoc basis from time to time before, 
which leads to the National Defense Committee's estimates where 
they try--but, I think, less carefully than Ms. Markowitz 
outlines--to do this comparison of how many ballots were sent 
out versus how many returned. That's where the 20-some percent 
difference lies.
    I was interested in this report in which EAC said it was 
pleased to find that no one reported more ballots were sent 
back than were sent out, which of course is our first 
consideration. But, to be serious about it, it also in this 
report notes, and Chairman DeGregorio can certainly speak to 
this, the inadequacies of State reporting on this front up to 
now. As he said in his oral statement, many States really do 
not have in place the mechanisms to track this. Many of these 
numbers are all absentee ballots sent out versus all returned, 
not, in other words, the military or overseas voters per se. 
Many States or many jurisdictions--and that actually is a 
feature of Federal law now--push absentee ballots out to 
someone who voted absentee the last time.
    The military turns over at a rate of 10 to 20 percent per 
year, and in addition, the remaining people move around a great 
deal. So, any kind of push system is going to result in a 
significant number of ballots not showing up. I'm impressed 
with Vermont's statistic that when they actually looked at the 
National Guard, a segment of that total population, they found 
that virtually all ballots were returned. We make every effort 
to get those ballots back.
    We have taken to heart the National Association's call for 
an air express ballot delivery system. We set the standard in 
2004 for return of ballots. The standard would be 5 days from 
foxhole to the LEO. We did that by insisting that whatever else 
forward commanders had to do, that their responsibility was to 
get the ballot from the fox hole to one of the five air pickup 
points in Iraq within a 2-day timeframe, and from that point we 
would take it by air to the major air gateway, which is 
Kuwait--or was Kuwait at that time--and from Kuwait back to New 
York, and from New York by express mail back to the LEO, so we 
invest a great deal.
    I fully support what Chairman DeGregorio advocated, which 
is, we need a longer time from ballot transmission by the 
States, even if we can get more of them to use electronic 
means, ballot transmission from the State to the voter, we 
really would like the 45 days. I am very grateful that Ms. 
Markowitz is willing to go before her legislature, charge up 
this hill for us even though she didn't succeed the last time. 
I would like to encourage her to try again.
    Senator Dayton. Minnesota also has its primary on the 
second Tuesday in September. Chairman DeGregorio, do you want 
to respond, and also could you clarify exactly what it is that 
you are measuring, please?
    Mr. DeGregorio. Yes, I appreciate Dr. Chu's answer and I 
think he did adequately explain some of the discrepancy, but 
let me go a little further just to explain where these figures 
come from.
    We had our hearing in St. Louis last week, and we had 
testimony from the National Defense Committee, which is a 
committee that basically advocates for military voters 
overseas, and the Overseas Vote Foundation that takes a look 
and advocates for other overseas citizens too. They both 
conducted surveys independent of each other for the 2004 
elections and came to very similar conclusions: roughly one in 
four people who attempted to vote were not getting their ballot 
back in time in order to be counted.
    Our statistics that were supplied to us by the States, were 
required by the Help America Vote Act. These voters--known as 
UOCAVA voters, in the terminology of the law--the individual 
jurisdictions of the country must report to us how many ballots 
were sent to them and how many were received. Our report did 
certainly acknowledge, and state very clearly, that many 
jurisdictions are not keeping these statistics.
    Even with that in mind though, in the statistics that we 
were provided by almost all of the States and Territories there 
is a pattern, and the pattern generally supports the statistics 
of these two independent groups. We're still seeing what I 
would characterize as a fairly high disenfranchisement rate 
from military and overseas voters. I think that Senator Burns 
talked to that this morning about a citizen in his State. You 
probably can find some in Minnesota in your State who are 
attempting unsuccessfully to vote. You have a late primary and 
it makes it difficult sometimes for the local jurisdictions to 
produce their ballot for the November 7 election.
    I do think we need to--as I said in my testimony, oral and 
written--that we have to address this issue. We have to take a 
look at the fact that this 45-day period is one that we have to 
have the ballots out by the 45th day because it takes so long 
to get ballots to and from voters.
    We had significant testimony last week in St. Louis from 
folks who had served overseas who have attempted to vote and 
their ballots were not counted because of the time it takes to 
send their requests and get their requests back. So, we need to 
take a look at this and see if there needs to be Federal 
legislation that gives the States greater options, but also as 
the Help America Vote Act does, provides incentives to them to 
deal with the problem.
    I think that perhaps encouraging them to change these 
deadlines, these dates for primaries or extend the deadline to 
receive these ballots is certainly one way to deal with this, 
but also provide greater opportunities for electronic 
transmission of ballots. The IVAS program of DOD is certainly a 
step in that direction, and we'd certainly like to see that 
nationwide, not just in three States, and not just in a very 
limited use in terms of transmitting ballots to people.
    Senator Dayton. Senator Thune, I think under the protocol 
you just became chairman.
    Senator Thune [presiding]. Don't let me interfere.
    Senator Dayton. I'll continue with my questions, thank you.
    I think it's worth noting for the record--we talk about the 
complexities or the lack of complexities given 45 States and 
other entities--but you also described, Secretary Chu, that 
there really are 7,000 counties. I was State Auditor of 
Minnesota previously, and I know I didn't have the functions of 
the Secretary of State, but I knew her well and audited the 
counties and understood clearly that most county auditors, at 
least in Minnesota, are elected. They're independent minded as 
they have the right to be--so I think it adds greater 
complexity for the Department, as well as for the Secretaries 
of State, than perhaps that figure of 45 would suggest.
    I guess I'd ask, Madam Secretary of State, obviously 
Montana's a different State, different situation, but how would 
you respond to that mother in Montana that Senator Burns 
mentioned there, and if an individual at the local level, as I 
understood it, his background, the clients didn't provide the 
necessary certification, what recourse does that mother, or 
what recourse does that soldier have?
    Ms. Markowitz. You raise a good issue. There is autonomy, 
although you should know that the Help America Vote Act really 
did--for the first time--give the State some authority to 
create uniformity in how the law is handled within a State.
    That being said, what we're seeing across the country is 
that sometimes it takes a lawsuit. It sometimes takes the State 
bringing suit against a local official to get them to give up 
some of that autonomy to do it right.
    In my experience, though, as a practical matter, it doesn't 
really take lawsuits, it takes training and education. I would 
feel terrible meeting somebody who is disenfranchised in this 
way, obviously, but I would want the local official to hear 
that story as well so that they can understand, really, what's 
required of them.
    In my experience, though, what it is is education that's 
required for our local officials, because they're as committed 
as we are to doing the right thing.
    I'd like to go back to----
    Senator Dayton. I'm sorry, in deference to Senator Thune--
--
    Ms. Markowitz. Yes, please.
    Senator Dayton.--because I have exceeded my normal 
committee time, if you want to--the committee record we're 
going to leave open, I believe, for 7 days--is that typical? Or 
whatever the normal time is, so if anybody has additional 
comments to submit for the record, please do so.
    Let me just ask one final question and ask each of you, 
again, to be brief. Do you recommend any particular additional 
Federal legislation? Do you believe it's necessary? What would 
it be that you could recommend to my colleagues?
    Dr. Chu. I think certainly I want to be respectful of the 
Federal nature of our system, just as Ms. Markowitz has pointed 
out--this is really a local responsibility. I do think 
encouragement of one sort or another to a 45-day window for 
physical ballot delivery, or more support for electronic means 
if it's not going to be physical, would be very helpful.
    Senator Dayton. Anyone else? Federal legislation?
    Ms. Markowitz. I would encourage you to continue to fully 
fund this effort from the voter assistance positions down to 
some of these more innovative projects. I would also caution 
you about legislation that may have unintended consequences. 
One of the challenges that we have right now is there is this 
requirement that if somebody is a military overseas voter and 
has requested an absentee ballot, that we continue to send them 
absentee ballots without requests in future elections for a 
number of years. Particularly in the military, people get 
redeployed within 18 months and that puts us in a sticky 
situation--we send out a ballot to somebody who's no longer 
there, we can't send out a second ballot because of security. 
So whatever Congress does, I ask you to please vet fully the 
unintended consequences because we want to be able to make 
things better as opposed to creating additional challenges. 
But, I thank you.
    Mr. DeGregorio. Mr. Chairman, I think that as Congress did 
with the Help America Vote Act that provided resources to the 
States and mandates to the States, but also some clear guidance 
in some areas--I think we can take a look at that same concept 
in the way we look at overseas voters and provide financial 
incentives, greater tools that they can use--for instance the 
IVAS program, taking it nationwide--but also taking a look at 
these deadlines that the States have and provide some incentive 
for them to move these deadlines for producing ballots.
    Senator Dayton. Mr. Stewart?
    Mr. Stewart. I have no comment, sir. This is a very 
complicated issue, and I think you're getting an appreciation 
for that. The gentleman that Senator Burns mentioned--this is 
still very much an individual responsibility, voting--you have 
to first register, and then you have to request your ballot. 
When you request your ballot is very important, so if your 
ballot doesn't show up sometimes, it's not the system's fault, 
it's the individual not acting soon enough, so this is very 
complicated.
    There are over 10,000 voting jurisdictions, the last figure 
I saw was 10,500, some of my colleagues say that--depending on 
how you want to slice it, it could be as many as 13,000 local 
voting jurisdictions. The State may have the authority, or the 
Federal Government may have the authority to pass legislation, 
but the rubber meets the road when you get down to the local 
jurisdiction and resources is a problem. Not all of the local 
jurisdictions have the internet, or the ability to send e-mail, 
so it's a very complicated issue.
    Senator Dayton. The GAO reports which I read last night 
reflected that complexity--I commend you for that. Mr. 
Chairman?
    Senator Thune [presiding]. Thank you, Mr. Chairman. Before 
we adjourn the hearing, I just wanted to reference one question 
here.
    There is a concern--generally speaking--we're 40 days away, 
or thereabouts, from an election. As there is in every 
election, there's always discussion about disenfranchisement of 
certain voter blocks. It's obviously not a new problem, but one 
of the concerns I think that's been raised is the potential of 
that happening with military and overseas voters. I would 
address this question to Mr. DeGregorio--in your written 
statement, you indicated that you have contracted for a study 
of internet voting and the transmission and receipt of absentee 
ballots for uniformed and overseas citizens, Absentee Voter Act 
voters, and I guess the question is when do you expect that 
study to be completed? Is there any reason you can suggest the 
study will not support some sort of online or internet voting?
    Mr. DeGregorio. Thank you, Mr. Chairman. We just contracted 
with an institution to conduct that study, just weeks ago, and 
we expect them to come up with a report by late next spring. 
They're going to certainly take a look at this election in 
particular to see what tools are being used by the States and 
by local election jurisdictions to serve military and overseas 
voters. This concept of internet voting is something that 
certainly has been discussed, the DOD has looked into it and 
several studies and several projects, and I'm certainly an 
advocate of moving in that direction. I do believe that we have 
the brains in this country, and the technology in this country, 
to address the issue in a positive manner to make the internet 
more friendly towards voters. I think we're going to take a 
look at military and overseas voters first as the DOD has done, 
and we want to find solutions to the problem, and that's what 
we've directed our researchers to do.
    Senator Thune. Secretary Chu, any comment on that? The 
possibility of that being an option somewhere in the future?
    Dr. Chu. The Department remains very interested in that 
option for obvious reasons, Congress has directed us to go both 
ways on this issue--first telling us to do it, then telling us 
to stop doing it--and as a result, our report on the last 
election cycle, 2004, is in abeyance until the EAC working with 
us sets standards for the future.
    I recognize there are issues about security out there, but 
I'm optimistic, like Mr. DeGregorio, that we can eventually 
solve those issues. I would urge that we allow the Department 
at an early date to try this out again on some kind of pilot 
basis, because I do think it is very powerful and overcomes 
many of the restrictions, if we can accept the security 
restraints that will be necessary, I'm intrigued by Ms. 
Markowitz's telephone voting idea that she mentioned just a few 
moments ago, which is another solution of a similar sort. I 
think we're very open to a wide range of solutions. Our 
philosophy is to put as many tools out there for LEOs to use as 
possible, because we recognize that it is a local 
responsibility to decide what are going to be the rules of the 
game, what's going to be satisfactory in this particular State, 
this county, in terms of its elected officials, who have key 
responsibility for the sanctity of American elections. We don't 
want to overrule their good judgment. We would like to put a 
variety of the tools out there, that's our philosophy at IVAS, 
that's our philosophy across the board--let them choose which 
is the best to use. We would like to guide them in certain 
directions, I will acknowledge that, and this is one that we'd 
like to encourage.
    Senator Thune. Thank you. I appreciate your concern. I 
think every LEO too has the same concern about integrity, 
ballot security, all of those sorts of things, so I share that 
concern and want to make sure as we proceed forward that we can 
do it in a way that does preserve the integrity of the 
elections and the voting. It does seem in a lot of other areas, 
I just came from a hearing I was chairing having to do with 
moving to a paperless system, such as filing requirements and 
digital signatures and everything else we have today and 
authenticating those--it seems at least that there ought to be 
ways of working with LEOs so that ultimately they run elections 
as you said, and that we could come up with some ways that 
would at least make it easier for our service men and women and 
their families to be able to participate in the democratic 
process in this country, which obviously--of all people--they 
certainly have the greatest right to do.
    Thank you for your testimony--I see my colleague from 
Missouri has arrived, so he may now be the--this is rotating 
chairmanship today----
    Senator Talent [presiding]. I will continue to defer to 
you, Mr. Chairman. I'm sorry that I had other obligations this 
morning and I wasn't able to get here before. I wanted to do a 
couple of things, one of them is to thank the chairman and the 
ranking member for this important hearing. Given the kind of 
technology that we have available, we really don't have any 
excuse for not making the right to vote fully available on as 
convenient a basis as possible--they're fighting for it, and 
they ought to be able to engage in it.
    I also wanted to recognize and thank a great Missourian, 
and my old friend, Paul DeGregorio, for his work on this issue 
and indeed on election issues and issues vital to the 
development of democracy around the world. I don't think I can 
count the number of miles you have logged, Paul, in helping to 
supervise elections all over the world, and often under very 
difficult circumstances, and adapt our principles to the needs 
of particular cultures and countries. I'm grateful to you, and 
Missouri is as well, and I think the country is as well.
    Let me just ask, any one of you may want to comment on 
this, but Dr. Chu, in particular--what issues do you see with 
the interim voting system that we have in place, and what 
direction do you see that going in, what are your priorities 
for making it work better for our service men and women?
    Dr. Chu. Thank you, sir, for that question. I'm very 
pleased with our results thus far for 2006. We tried this out 
on a, really, quite limited scale in 2004. We have deployed two 
different tools under this rubric, this time. One, e-mail-based 
that uses, essentially, a banking-type secure server. As I 
indicated this morning, it's an honor to report we have 
approximately 500 counties in the United States in a dozen 
States or so that have agreed to use it for this election 
cycle. It represents very important experience, a very 
important basis for deciding what's the best option for 2008. 
It very well may be that the best option is a set of options. 
What I'm interested in is that by giving two choices to LEOs, I 
think we got a lot more response then when we had only one 
mode, or one answer. Because each of that set of important 
actors has his or her own issues, constitutions--as Ms. 
Markowitz has reminded me this morning--to deal with and one 
solution that may be good for State A, will not work so well 
for State B, a different solution there. So, what I'm taking 
away from our experience thus far is that having more than one 
answer so that the LEO can choose what's best, may be a good 
strategy for the long-term.
    Senator Talent. Thank you, I appreciate that very much, and 
your sensitivity to the needs of our Secretaries of State, and 
also our county clerks and our election officials who really do 
want everybody to be able to vote in as convenient a means as 
possible, but have a lot of practical concerns. We've 
experienced this with the Federal Voting Law, which was 
certainly aimed at a good objective and has done a lot of good, 
but I hear from my county clerks all of the time about things 
that they have to do that they don't think make a lot of sense 
in their jurisdictions. So it's a balance we have to strike.
    I'm not going to keep the witnesses any longer. I know, Ms. 
Markowitz, that you have to leave. I'm sure I expressed the 
opinion of the chairman and the ranking member when we say 
thank you for your work in this area and for appearing before 
us.
    Senator Dayton. Mr. Chairman, if I just may?
    Senator Talent. I'm sorry, the Senator from Minnesota?
    Senator Dayton. If I may correct my earlier comment, I'm 
told that the hearing record will remain open for 2 days. Any 
additional comments, please submit within that time frame. 
Thank you.
    Senator Talent. Without objection. The hearing is 
adjourned.
    [Whereupon, at 11:01 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
